UNITED STATES MARSHALS SERVICE’S
USE OF INDEPENDENT CONTRACTORS
           AS GUARDS

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 05-24
               May 2005
                     UNITED STATES MARSHALS SERVICE’S
                USE OF INDEPENDENT CONTRACTORS AS GUARDS

                                   EXECUTIVE SUMMARY

       The United States Marshals Service (USMS) assumes custody of
individuals arrested by federal agencies and is responsible for housing and
transporting prisoners from the time they are brought into federal custody
until they are either acquitted or sentenced. On any given day, the USMS
has in its custody roughly 47,000 detainees housed in federal, state, local,
and private jails throughout the nation.

      The USMS is granted authority under 28 U.S.C. Section 565 to employ
the use of personal services contract guards1 to assist USMS deputy
marshals in day-to-day operations throughout its 94 districts.2 The USMS’s
primary sources for procuring personal services contract guards are 1) guard
company vendors and 2) independent contractors. Since the Office of the
Inspector General (OIG) has reviewed the USMS’s use of guard company
vendors in prior audits (as discussed in the background section of the
report), we selected as the focus of this audit the USMS’s use of independent
contractors for guard services.

        The objectives of this audit were to: 1) assess the USMS’s internal
controls over the procurement of independent contractors for guard service,
2) determine whether the USMS is adequately monitoring the performance
of its independent contract guards, 3) determine whether the independent
contractors are meeting the USMS’s experience and fitness-for-duty
requirements, 4) evaluate the initial training provided to contract personnel,
and 5) determine whether independent contractors are performing only
authorized duties.




       1
          The Federal Acquisition Regulation (FAR), Part 37.104 states that “a personal
services contract is characterized by the employer-employee relationship it creates between
the Government and the contractor’s personnel. The Government is normally required to
obtain its employees by direct hire under competitive appointment or other procedures
required by the civil service laws. Obtaining personal services by contract, rather than by
direct hire, circumvents those laws unless Congress has specifically authorized acquisition of
the services by contract.”
       2
         28 U.S.C., Section 565 states that “the (USMS) Director is authorized to use funds
appropriated for the Service to make payments for expenses incurred pursuant to personal
services contracts and cooperative agreements… for security guards and for the service of
summons on complaints, subpoenas, and notices in lieu of services by United States
marshals and deputy marshals.”

                                               i
      The audit encompassed the USMS’s management of personal services
contract guards during fiscal years (FYs) 2003 and 2004. Our primary focus
was on management of contract guards by USMS district offices and the
Justice Prisoner and Alien Transportation System (JPATS).3 In conducting
the audit we:

       •   Researched and reviewed applicable laws, policies, regulations,
           manuals, and memoranda;

       •   Interviewed officials at USMS headquarters;

       •   Reviewed contract operations at 7 USMS sites4 and selected a
           judgmental sample of 223 case files of independent contractors to
           determine whether guards 1) met experience requirements for
           guard service, 2) were fully trained, 3) met fitness-for-duty
           standards, and 4) had received background clearances;

       •   Interviewed contracting officers, contracting officer’s technical
           representatives (COTRs), and supervisors in each site to determine
           whether the sites were effectively monitoring the contracts and
           contractors’ performance; and

       •   Interviewed district judges at each site we visited, and interviewed
           six judges on the Judicial Conference Committee for Security and
           Facilities.

I.     Summary of Audit Findings

      Our audit of the USMS’s use of independent contractors as guards
disclosed the following deficiencies:

       •   The USMS districts’ procurement practices are in violation of USMS
           policy and the FAR with regard to procurement of independent
           contractors.



       3
        In 1995 the air fleets of the USMS and the Immigration and Naturalization Service
merged to create the JPATS. Operated by the USMS, the JPATS transports prisoners
between judicial districts, correctional institutions, and foreign countries. According to the
USMS, the JPATS averages more than 270,000 prisoner and alien movements annually
through a network of aircraft, sedans, vans, and buses.
       4
         The OIG visited six USMS districts and the JPATS during our audit. These sites
included large and small districts that were geographically dispersed throughout the
country.

                                               ii
      •   A lack of controls over procurement process for independent
          contractors has created an environment conducive to
          inconsistencies, and inefficiencies.

      •   Internal control weaknesses in the hiring and monitoring of
          independent contractors allowed for hiring of unqualified individuals
          for guard service.

      •   Because of the lack of documentation in USMS files, we could not
          verify for the majority of independent contractors tested whether
          they had been medically certified as fit for duty.

      •   Armed guards did not always receive firearms training on a timely
          basis.

      •   We could not verify that background investigations had been
          conducted for contract guards prior to their employment, where
          applicable, due to lack of documentation in USMS files.

II.   Background

     Under 28 U.S.C., Section 565, the USMS director is authorized to use
appropriated funds “to make payments for expenses incurred pursuant to
personal services contracts and cooperative agreements… for security
guards… in lieu of services by United States marshals and deputy marshals.”

       Prisoner Management, Section 9.31 established policies and
procedures for USMS districts and the JPATS governing procurement of
independent contractors as security guards. To ensure that USMS
procurement practices are compliant with the FAR, the USMS incorporated
into its policy, the FAR requirements for procurement of personal services
contracts, in particular, the need for a competitive bidding process in
awarding contracts.

      According to USMS policy, independent contractors may be used to:
1) guard and process federal prisoners in the cellblock, courtroom, and
during transport; 2) guard and transport federal prisoners to and from
medical appointments; and 3) guard federal, seized, or forfeited property
(including entry control, roving patrol, fixed posts, and emergency
response). During the course of this review, we found that the USMS uses
independent contractors primarily to transport federal prisoners to and from
court facilities, and guard federal prisoners in courtrooms or cellblocks.



                                       iii
III.   Management of Independent Contractors

        Independent contractors, as the term implies, require a separate
contract for each individual contractor. In FY 2003, for example, the USMS
district offices employed a total of 2,786 independent contractors, each of
whom required a separate contract. By contrast, use of guard company
vendors may provide for hundreds of guards under a single contract. Under
the USMS’s Court Security Officer Program, for instance, the USMS utilizes
12 separate contracts with regional guard companies to obtain the services
of 4,500 contract guards to provide security at about 400 federal court
facilities nationwide.

       Our review of 223 individual contracts with independent contractors in
six districts and the JPATS operations hub revealed material deviations from
the USMS policy and the FAR, including the absence of a competitive bidding
process, arbitrary wage determination, unauthorized contract payments, and
contracting officers exceeding procurement authority. The problems stem
largely from a general disregard in the districts for USMS policy governing
procurement practices for personal services contracts. Instead of a proper
procurement process, what we found in the field was a process that more
closely resembles the recruitment of employees than the hiring of
independent contractors. Further, the overall lack of a formal procurement
process for hiring independent contractors as guards has created an
environment conducive to inconsistencies, inefficiencies, and misuse of
authority.

       Full and Open Competition

      We found that the USMS sites reviewed failed to provide for full and
open competition in the awarding of personal services contracts to
independent contractors. For example, the USMS sites reviewed did not
maintain bidders’ lists, in accordance with USMS policy. Further, there was
no formal solicitation of sealed bids from potential contractors, nor was there
any other systematic approach to procure contract guards based on a
competitive process, as required by USMS policy and the FAR.

       Of the 57 independent contractors that we interviewed or who
provided questionnaires, 42 contractors (74 percent) indicated that they
learned about the guard position through informal contacts with colleagues
or acquaintances in law enforcement. At least four others were actively
recruited by the USMS. In no instances did we observe the use of a bidders
list or any formal solicitation of independent contractors for guard services
pursuant to a full and open competitive bidding process. To the contrary,
what we observed were procurement practices that encouraged the

                                       iv
development of a closed system that restricts the pool of applicants to those
individuals who, through some personal contact, learn of contract guard
positions. USMS officials cited sole source justification in circumventing the
full and open competition requirements of the FAR.

      Wage Determination

       We found that wage rates for independent contractors are set by the
districts with approval from USMS headquarters, rather than through a
competitive bidding process, as required by USMS policy directives. We
observed that the discretion afforded the districts resulted in broad variances
in hourly wage rates from district to district, ranging from a low of $12 in the
Central District of California, which includes the Los Angeles metropolitan
area, to a high of $35 for select guards within the District of Columbia
Superior Court.

      We could not attribute wage variances to cost-of-living factors because
wages in some metropolitan areas, such as Los Angeles, with an hourly
wage rate of $12, were lower than that of more rural areas such as the
Southern District of Texas and the Southern District of Iowa, which had
hourly wage rates of approximately $18. Rather, the variances stem from
the fact that some districts established wage rates for independent contract
security guards commensurate with wages for active duty sworn law
enforcement officers, while others, such as JPATS, established wage rates
commensurate with that of bailiffs and jailers, which is more in line with the
duties required of the contract.

      Such variances would not exist under contracts with guard company
vendors, where wages are established by the vendor, and are based upon
the Department of Labor’s (DOL’s) prevailing wage rate determinations for
the applicable service industry occupation, in accordance with the
McNamara-O’Hara Service Contract Act of 1965.5 The current DOL
prevailing wage rate for bailiffs and jailers averages about $16.25
nationwide.

       We determined that the high wages were offered, in part, to attract
active duty sworn police officers to serve as contract guards, as was the
case in the Western District of Washington, which offered an hourly rate of
$25 hour. The problem we found with this strategy was that while the
districts may succeed in recruiting some active duty police officers, in most

      5
        The McNamara-O’Hara Service Contract Act of 1965 establishes standards for
minimum compensation, safety and health protection of employees performing work for
contractors and subcontractors on service contracts entered into with the federal
government and the District of Columbia.

                                           v
instances the districts are forced to rely on generally less-qualified contract
guards — usually retirees — because the active duty police officers are not
always available when needed for work.

      Thus, in some districts the USMS is paying too much for independent
contractors by setting wages for a labor pool of which it cannot take full
advantage. On average, USMS independent contractors were paid at an
hourly rate of $19.62 for guard services in FY 2003, $3.37 greater than the
average prevailing wage rate of $16.25, based on the DOL’s prevailing wage
rates for bailiffs and jailers. Based on 611,638 total contract guard hours
reported in FY 2003, we estimate that the USMS paid approximately
$2 million in excess of the prevailing wage rate for comparable services in
that year alone. This does not necessarily mean that such cost savings
could be achieved, but it does reflect a basic flaw in the districts’ wage-
setting methodology.

      Procurement Authority

       The contracts for most of the independent contractors reviewed were
not to exceed $25,000 and procurement authority delegated to contracting
officers at the sites reviewed was generally for the same amount. USMS
policy directive 9.31 D.8.e states, “should the contract per guard exceed the
district’s procurement authority the action must be ratified by the
Procurement Office. The districts and the JPATS shall properly justify the
need to exceed the contract amount.” This language is derived from the
FAR, which states that “Contracting officers may bind the Government only
to the extent of the authority delegated to them.”

      We found that in 3 of the 7 sites reviewed, USMS contracting officers
allowed contractors to receive payments that exceeded the contract amount
by $221,586 without written justification, or approval from USMS
headquarters, as follows:

      •   In the Southern District of New York, the contracting officer allowed
          payments to exceed the contract amount in 8 of the 17 contracts
          reviewed, or 47 percent, for a total of $187,490 in unauthorized
          payments.

      •   In the District of Columbia Superior Court, the contracting officer
          allowed payments to exceed the contract amount in 10 of the 25
          contracts reviewed, or 40 percent. Unauthorized payments for the
          10 contracts totaled $28,539.



                                        vi
      •   In the District of Puerto Rico, the contracting officer allowed
          payments to exceed the contract amount in 2 of 39 contracts, or
          5 percent, for a total of $5,557.

       Our review of payroll totals for all of the 2,786 independent
contractors employed in FY 2003 indicated that a total of 97 guards were
paid in excess of their contract amounts by a total of $887,756. As of the
third quarter of FY 2004, 26 guards had received unauthorized payments
totaling $135,532.

      Unauthorized Services

      USMS policy, as reflected in the Statement of Work for independent
contractors, specifically delineates those services authorized under the
contract (see Appendices III and IV). To determine whether contractors
were providing only authorized services, we interviewed district officials,
reviewed timesheets and obtained information directly from independent
contractors. We noted the following problems:

      •   In the District of Arizona, the USMS and the Tucson Police Union
          have established a system whereby for every five police officers
          assigned guard work at a given time, the district has to have a
          police sergeant assigned to supervise them. Under the agreement,
          the district also has to pay the sergeant $4 more an hour than the
          regular contract rate. We noted that the two sergeants we
          interviewed spend 10 to 20 percent of their time performing
          administrative duties, such as scheduling. USMS policy clearly
          prohibits the use of independent contractors for administrative and
          supervisory functions.

      •   In the Western District of Washington, the USMS hired a recently
          retired USMS employee as a contract guard. While the time and
          attendance records for the retiree-turned-contractor indicated that
          she was performing prisoner transport, in reality the retiree was
          being used in her former capacity as an administrator to train her
          replacement, a function not permitted under 28 U.S.C. Section 565.

      •   In the Southern District of New York, a recently retired
          administrative employee was hired by the district as a contract
          guard, only to resume her administrative duties until a full-time
          replacement could be found. The retiree was under contract in FY
          2003 and up through April 2004, when the chief deputy terminated
          her contract. As was the case in the Western District of
          Washington, the contractor’s time and attendance records indicated

                                      vii
         that she was performing guard services, when in fact, she was
         performing administrative duties.

      Use of Independent Contractors

       At the heart of the issue underlying the problems we encountered with
the USMS’s use of independent contractors is the question of whether the
USMS can realistically be expected to adhere to the rules regarding their
procurement. Deviations from USMS policy and the sections of the FAR
upon which it is based were commonplace and fostered an environment
conducive to inconsistencies, inefficiencies, and unauthorized uses of
independent contractors. However, requiring districts to provide full and
open competition in accordance with USMS policy (e.g., formal solicitations,
bidders’ lists, sealed bids) on 2,000 plus individual contracts annually, in our
judgment, would be an administrative burden that would negate the benefits
derived from the use of the independent contractors. Indeed, even with the
current “streamlined” procurement practices, districts with large numbers of
independent contractors commented on the administrative workload
required in managing so many individual contracts. The fact that the
districts have almost universally ignored the requirements of USMS policy
governing the procurement of independent contractors, in our judgment,
constitutes a tacit rejection of the policy, and indicates that full
implementation of the policy is not practicable.

      Thus, the dilemma facing the USMS: To allow the districts to continue
with their current procurement practices, which are expedient but
fundamentally flawed and susceptible to abuse, or to fully implement the
procedures required to bring the districts into compliance with USMS policy
and the FAR and in so doing create an unmanageable administrative burden.

      Possible Alternatives

      Since neither of the above options is an acceptable solution, we
recommend the USMS consider seeking alternative approaches to acquiring
the necessary guard services that would eliminate the need for independent
contractors. Specifically, we recommend that the USMS consider
1) expanding the use of company vendor contracts, 2) expanded use of
intergovernmental agreements with local jails or cooperative agreements
with local law enforcement agencies, and 3) explore as an alternative the
use of part-time and temporary employees.




                                       viii
      Vendor Contracts (Company Guards)

      The USMS could expand, to some extent, its use of guard company
vendors. Currently, the USMS uses contract vendors primarily to provide
courtroom security via the CSO Program and for guarding inmates receiving
outside medical care. Our review determined that USMS districts rarely use
vendor guards for court-related prisoner handling activities, preferring
instead to use independent contractors.

      Cooperative Agreements/IGAs

       Current USMS policy requires that districts obtain guard services to the
extent possible from existing IGAs with local jails. Toward that end, the
districts could negotiate agreements with local law enforcement or
corrections agencies to provide guard services and prisoner transportation.
One of the districts surveyed had indicated an interest in pursuing the use of
a cooperative agreement with the local police department in lieu of using
independent contractors. Expanded use of these agreements could alleviate
the districts’ reliance on independent contractors for transporting prisoners
to and from federal courthouses and medical facilities.

      Part-time and Temporary Employees

      In 1978, the U.S. Congress established the Federal Employees Part-
time Career Employment Act (Act) to promote the expansion of part-time
employment. Congress concluded that part-time employment benefits the
government by offering management more flexibility in meeting work
requirements and filling shortages in various occupations.

      We noted in our review of USMS payroll reports that over 90 percent
of the independent contractors used in FY 2003 worked fewer than six
months during the year. On average, independent contractors worked about
200 hours over the course of the year. Despite the fact that these
independent contractors represent, for the most part, a workforce of
temporary, part-time workers, there is no indication that the USMS has ever
pursued a part-time program or explored the use of part-time or temporary
employees for guard services. We believe that the implementation of such a
program may be a feasible alternative to the use of independent contractors
that would meet the USMS’s flexibility requirements because of fluctuations
in courtroom activity.




                                       ix
IV.   Internal Controls

       There are inherent risks associated with transporting and guarding
federal prisoners outside of a jail or detention center. To minimize these
risks the USMS has established policies and procedures to ensure that
independent contractors hired for guard service possess the skills and
experience necessary to perform their duties. However, our review of over
200 contract guard case files revealed internal control weaknesses in the
hiring and monitoring of independent contractors. We determined that at
least 12 individuals with little or no law enforcement experience were hired
as guards and performed guard duties. Further, we were unable to establish
for a significant number of guards whether they were qualified for guard
service due to a lack of USMS documentation. For example, we were unable
to verify that guards had been fully trained, had met fitness standards, and
had received a required background investigation due to a lack of
documentation. In general, the problems noted resulted from the lack of a
systemized approach to hiring and monitoring contracts by the contracting
officers and COTRs. Failure to address these weaknesses may allow poorly
qualified, ill-trained individuals to obtain guard contracts, which in turn could
jeopardize the safety of individuals involved in the judicial process.

      Qualifications

       Individuals hired as independent contract guards are classified under
one of five qualifying experience categories: 1) active duty sworn state or
local law enforcement officers; 2) reserve sworn state or local law
enforcement officers; 3) former/retired sworn federal, state, or local law
enforcement officers; 4) former/retired military police; or 5) private
security/correctional officers. Properly classifying a contractor’s qualifying
experience is important because it determines the requirements needed by a
contract guard to meet USMS employment standards. Category 1 and 2
guards, for instance, need only affirm that they meet specific USMS
standards, e.g., firearms qualified, physically fit, sufficiently experienced in
law enforcement, while category 3, 4, and 5 guards must provide medical
fitness certification signed by a doctor; and be firearms qualified by the
USMS.

       We were unable to determine or verify qualifying experience for a
significant number of independent contractor guards because the USMS files
lacked sufficient documentation. The USM-234 Personal Qualifications
Statement, for instance, the main document used to determine a
contractor’s qualifications, was missing from 51 case files, or 23 percent of
the 223 case files we examined. Lack of documentation was generally
concentrated in two of the sites we reviewed. In one district, 21 case files,

                                        x
or 84 percent of the 25 case files reviewed, lacked the necessary documents
for determining the contractors’ qualifications. The USM-234 was not on file
for any of the 30 independent contractors reviewed in another district. Case
files were missing for 10 of the 30 contractors, and the remaining 20 case
files reviewed did not contain the USM-234.

      For those files reviewed that did contain sufficient documentation, we
determined that at least 12 of the guards hired lacked the experience
required to qualify as contract guards. Four of those individuals had no prior
law enforcement experience at all, but rather held positions as a sales clerk,
a receptionist, a retired USMS employee who had worked as an
administrative clerk, and an airport screener. While two of the four guards
were no longer employed as contract guards, the former receptionist and
airport screener were still active at the time of our review. USMS officials
commented that while these individuals may not have had the proper law
enforcement experience at the time they were hired, they now have
qualifying experience through their guard service with the USMS. However,
we believe that the hiring of unqualified individuals for prisoner handling
operations represents a breakdown in internal controls that places an undue
risk on all parties involved in the judicial process.

      Fitness-for-duty

       We reviewed 132 active case files to verify that independent contractor
guards were medically certified as fit for duty. Our tests revealed a range of
results. On the positive end of the spectrum was one district and the JPATS
operation, whose case files were fully documented. At the other end of the
spectrum were the three districts in which the case files were poorly
documented. Somewhere in between were two districts, in which most but
not all case files reviewed were adequately documented.

      While not cited as an overriding concern, the physical fitness of
retirees in the guard service was cited as an issue by USMS employees in
the districts we reviewed and with the 14 judges that we interviewed. While
the judges were generally satisfied with the performance of the independent
contractors, one of the judges who responded by questionnaire did express
concern stating, “The contract guards are usually older (some retired) or
have worked a previous shift(s) for their regular employer. Due to a
combination of these factors, contract guards are more likely to fall asleep
during court proceedings.”

      It should be noted that while deputy marshals are medically certified
by an agency physician, independent contractors are allowed to have their
own private physicians sign their certification forms. As such, some

                                      xi
skepticism is required as to the validity of those certifications. For example,
we determined that at least three independent contractors had retired from
their respective police agencies on medical disability. In addition, the
contracts for at least four guards in one district were terminated because
they did not meet fitness-for-duty standards. All were category 1 guards,
i.e., active duty sworn law enforcement officers, who had been affirmed as
fit-for-duty by their police agency. A guard with a physical disability or
deteriorating health may not be able to respond adequately in an
emergency, which could jeopardize the safety of all parties involved in the
judicial process.

      Training for Independent Contractors

       USMS policy requires that independent contractors receive specific
training within the first 30 days of service and annual refresher training
thereafter. For example, the USMS requires independent contractors to
review USMS policy on the use of force and view videos on
bloodborne/airborne pathogens, prisoner restraints, and prisoner
transportation. In the majority of case files reviewed, we were unable to
verify that contractors had been provided with the required training. We
reviewed a sample of 223 current and former independent contractors to
determine whether they were provided the required training. We found
documentation of training in one of the six districts we reviewed was
virtually nonexistent, while documentation in three other districts were only
marginally better.

      Firearms Qualifications

      In addition to general training, we assessed whether contractors had
met the USMS firearms qualifications requirements. Not all contractors are
armed guards. In fact, the USMS Statement of Work for independent
contractors states that they shall be unarmed unless otherwise directed (see
Appendix IV). For those contractors that the USMS designates as armed
guards, USMS firearms policy requires that the guards qualify with firearms
at least once every six months (see Appendix V).

      Of the 132 active contractors selected for review, we determined that
77 contractors, or 58 percent, were required to be armed while
41 contractors, or 31 percent, were unarmed. We could not determine for
the remaining 14 independent contractors, or 11 percent, whether they were
required to carry and qualify with firearms because either their files or their
Weapons Qualification Forms (USM-333) were not available. With the
exception of five armed contractors who did not qualify with their firearms,
we concluded that armed contractors at the sites reviewed received firearms

                                       xii
qualifications. However, there was no indication of any corrective action
taken to ensure that the five armed contractors qualified with their firearms.
In addition, the required training for 23 of the 77 armed contractors, or 30
percent, was not provided in a timely manner, i.e., every six months, as
required by USMS firearms policy. Independent contractors in four of the six
districts we reviewed had gone a year or longer without re-qualifying with
their firearms.

       Background Investigations

       Background investigations on applicants serve an important purpose in
mitigating the risk of hiring unqualified individuals for guard duty. Our
review of active case files at the sites selected indicated that district offices
are not in compliance with USMS policy concerning background
investigations for independent contractors. We could not verify that a
“limited background investigation” had been conducted in 86 case files, or
65 percent of the 132 active case files reviewed.

       Contract Monitoring

       In general, the internal controls weaknesses discussed in this report in
large part are attributable to poor contract monitoring on the part of USMS
contracting officers and their respective COTRs.6 This is not to say that
contracting officers and their COTRs were not monitoring the contractors
themselves. Indeed, our interviews with contracting officers and their
COTRs indicated that they were personally aware of contractors’ individual
performances in the completion of their assigned duties. However, all of the
sites visited lacked a reliable system to record and maintain contract
documentation related to hiring, training, and evaluating independent
contractors. A comprehensive system of rosters and databases would
provide the USMS with an effective means to collect and track information
related to contract activity.



       6
           Contracting officers may appoint individuals selected by the district or site office to
act as authorized representatives in the monitoring and administration of a contract. Such
officials are designated in the contract as the COTR. The COTR must attend and
successfully complete a COTR course and obtain training in procurement ethics. Once the
COTR signs a certification for procurement officials required by the Procurement Integrity
Act, the contracting officer designates in writing that the COTR can act as an authorized
representative to monitor contract performance and deliveries in accordance with the
contract requirements and certify satisfactory delivery of supplies or services before
contractor invoices are paid. The contract guard policy states that a marshal or another
appropriate individual may be a COTR after receiving the appropriate training.


                                                xiii
       Toward that end, we noted that at least three of the six districts we
reviewed had implemented signed rosters to document training completed
and videos viewed by independent contractors. In addition, the JPATS
operation had recently implemented a database for monitoring training
provided to its independent contractors. The JPATS database includes
contractors’ orientation, firearms qualifications, ethics training, fit-for-duty
requirements, JPATS-specific training, annual refresher training, and
affirmation of work qualifications forms. In our judgment, the steps taken in
the aforementioned districts and JPATS to document and track guard
training represent a best practice that USMS management should use in
developing a system to implement in all districts.

       We also noted that one district had implemented the use of written
evaluations of its independent contractors. In addition, the administrative
officer in another district informed us that the district was developing an
evaluation form for its independent contractors. We highlight the use of a
formal evaluation process as another best practice that the USMS should
implement in all districts.

V.    OIG Recommendations

      Our report contains 7 recommendations, including that the USMS:

      •   Ensure the use of formal procurement procedures in the districts to
          remedy the inconsistencies, inefficiencies, and unauthorized uses of
          independent contractors that are cited in this report.

      •   Revise the independent contractor fitness-for-duty requirements to
          reflect the physical requirements needed to adequately perform
          contractor assignments.

      •   Require that contracting officers maintain complete contract files
          documenting each independent contractor’s qualifying experience,
          the qualification category under which he or she is hired, fitness-
          for-duty, and a completed limited background investigation.

      •   Institute a formal evaluation process to include, at the minimum,
          having supervisors perform written evaluations of independent
          contractors on an annual basis.

      •   Develop and implement in the districts a system to track and
          document annual independent contractor training.



                                       xiv
•   Ensure that independent contractors required to carry firearms
    qualify every six months.

•   Consider obtaining the guard services currently provided by
    independent contractors through the following alternative methods:
    1) expanded use of guard company contracts, 2) expanded use of
    intergovernmental agreements with local jails, 3) use of cooperative
    agreements with local law enforcement agencies, and 4) use of
    part-time or temporary employees.




                                xv
                      UNITED STATES MARSHALS SERVICE’S
                 USE OF INDEPENDENT CONTRACTORS AS GUARDS

                                      TABLE OF CONTENTS


INTRODUCTION ............................................................................... 1
  Background ................................................................................... 1
  Use of Independent Contractors........................................................ 2
  Procurement Process for Independent Contractors .............................. 4
  Prior Reports.................................................................................. 4

FINDINGS AND RECOMMENDATIONS................................................ 6
1. MANAGEMENT OF INDEPENDENT CONTRACTOR GUARD FORCE PROVES
   PROBLEMATIC ................................................................................ 6
   Lack of Competitive Bidding Process.................................................. 6
   Arbitrary Wage Determinations......................................................... 7
   Exceeding Procurement Authority ..................................................... 9
   Unauthorized Services................................................................... 10
   Use of Independent Contractors...................................................... 11
   Possible Alternatives ..................................................................... 12
   Conclusion................................................................................... 14
   Recommendations ........................................................................ 14

2. INTERNAL CONTROL WEAKNESSES IN HIRING AND MONITORING OF
   INDEPENDENT CONTRACTORS INCREASE RISK THAT THE USMS WILL
   HIRE UNQUALIFIED PERSONS FOR GUARD SERVICE .......................... 15

    Qualifications For Contract Guards Not Adequately Documented.......... 15
    Medical Certifications Not Consistently Documented .......................... 17
    Inability to Verify Contractor Training .............................................. 19
    Firearms Qualifications Not Always Timely........................................ 20
    Limited Background Investigations.................................................. 23
    Contract Monitoring ...................................................................... 24
    Conclusion................................................................................... 25
    Recommendations ........................................................................ 26

OTHER REPORTABLE MATTERS ....................................................... 27

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 28
APPENDICES:

I    - OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 29

II   - GLOSSARY OF TERMS AND ACRONYMS ................................... 31

III - USMS DIRECTIVES ON PRISONER MANAGEMENT
       PERSONAL SERVICES CONTRACT GUARDS ........................... 33

IV - STATEMENT OF WORK
      PERSONAL SERVICES CONTRACT GUARDS ........................... 44

V    - USMS FIREARMS POLICY........................................................ 53

VI - U.S. MARSHAL QUESTIONNAIRE ............................................. 56

VII - AUDITEE’S RESPONSE ............................................................ 59

VIII - OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
         SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT .... 62
                   UNITED STATES MARSHALS SERVICE
             USE OF INDEPENDENT CONTRACTORS AS GUARDS

                             INTRODUCTION

      The United States Marshals Service (USMS) is responsible for housing
and maintaining an average daily population of about 47,000 federal
prisoners awaiting trial in federal courts. Federal prisoners in USMS custody
are housed in local jails, contract facilities, and federal Bureau of Prisons
(BOP) facilities throughout the country. Depending upon the length of a
court trial, time spent in USMS custody may run from several days to several
years, during which time the USMS is responsible for transporting prisoners
to and from federal court facilities for trial proceedings. In addition, when
prisoners require outside medical treatment, the USMS must provide secure
transport to and from outside health care facilities and guard prisoners
during the period of treatment.

Background

     The USMS is granted authority under 28 U.S.C. Section 565 to hire
personal services contract guards to assist USMS deputy marshals in day-to-
day operations throughout its 94 districts. The USMS’s primary sources for
procuring personal services contract guards are 1) guard company vendors
and 2) independent contractors.

     Guard Company Vendors

        Contracts with guard company vendors may be managed through
USMS headquarters or individual districts depending on the size of the
contract and the district’s procurement authority. The Court Security Officer
(CSO) Program, for instance, is a centralized operation in which contracting
officers at USMS headquarters procure guard services through large-scale
contracts, covering multiple districts. The CSO Program represents the
USMS’s most significant use of contract guard services involving the use of
about 4,500 contract guards nationwide to provide courtroom security in the
more than 400 federal courthouses in the 94 districts. Individual districts
may also procure guard services through local guard company vendors, as
we found in our recent audit of USMS prisoner medical care. In contrast to
CSO contracts, these are smaller scale contracts, managed at the district
level to provide for the guarding of prisoners taken to outside medical
facilities for medical care.




                                      1
      Independent Contractors

      We found that the primary method used to procure guard services at
the district level is through the use of independent contractors. We
surveyed the 94 U.S. Marshals about their use of personal services contract
guards in the districts and received responses from 63, or 67 percent (see
Appendix VI). Only 2 of the 63 said that they acquired guard services
exclusively through local guard company vendors. Another five respondents
said that they used a combination of both guard company vendors and
independent contractors. The remaining 54 (86 percent) of the respondents
said that they obtained guard services exclusively through the use of
independent contractors.

      Unlike contracts with guard company vendors, which may be managed
by the districts or by USMS headquarters, depending on the size of the
contracts, procurement of independent contractors is an entirely
decentralized function in which contracting officers in the districts contract
with individuals for the necessary guard services. Contracts with
independent contractors, as the term connotes, are individual contracts with
a single contract guard. In Fiscal Year (FY) 2003, the USMS initiated and
administered 2,786 separate contracts for each of its independent guard
contractors.

       Although the Federal Acquisition Regulation (FAR) definition of
personal services contracts includes all security guard services, the USMS
more narrowly defines the term “personal services contract” as a contract
for guard services with an independent contractor. As noted on page 4 of
this section, the OIG has conducted two prior reviews of the USMS’s use of
guard company vendors; therefore, we decided to focus this audit on the
USMS’s use of independent contractors for guard services. The focus of our
audit was on the USMS’s use of these independent contractors.

Use of Independent Contractors

      USMS policy covering the use of personal services contract guards
(independent contractors) states that they are to be used on an “as needed
basis,” not as a replacement for full-time, USMS employees. When utilized,
independent contractors’ duties include: 1) guarding and processing federal
prisoners in the cellblock, courtroom, and during transport; 2) guarding and
transporting federal prisoners to and from medical appointments; and




                                      2
3) guarding federal, seized or forfeited property (including entry control,
roving patrol, fixed posts, and emergency response).7

       Use of independent contractors for guard services varies from district
to district. For example, two of the six districts we reviewed did not use any
independent contractors in FY 2003, instead choosing to acquire needed
guard services through local guard company vendors. Some districts used a
combination of methods, acquiring most of its guard services through guard
companies and using independent contractors on a very limited basis. Still
other districts relied solely on independent contractors for guard services.
Overall, the USMS’s procurement of independent contractors for guard
services has shown a steady increase, both in number and cost from year to
year, as indicated in the table below:


                Independent Contractors Employed For
                    Fiscal Years 2001 Through 2003
                                      Average
             Fiscal    Independent     Hourly
             Year       Contractors    Wage      Total Cost
             2001          2,208      $ 17.88   $ 8,251,181
             2002          2,432      $ 18.67   $ 9,491,842
             2003          2,786      $ 19.58   $11,866,351
              Source: USMS payroll reports.


       While the USMS prominently highlights its use of contract CSO’s in its
literature and on its website, no similar mention is made of the USMS’s
equally heavy reliance on the thousands of independent contractors used on
a daily basis for prisoner handling activities. The term “shadow force” has
entered the lexicon of USMS employees and is used in reference to this
large, but unacknowledged pool of contract guards that operates alongside
the deputy marshals. The term may also be attributed to the fact that the
expanding ranks of independent contractors are approaching that of a one-
to-one ratio to deputy marshals (i.e., every deputy marshal casts a contract
shadow). The USMS’s reliance on independent contractors was borne out in
workload statistics that we reviewed indicating that independent contractors
constitute a core part of the USMS’s workforce in many districts, sometimes
accounting for more than 50 percent of total hours charged to prisoner
handling activities.
       7
         According to USMS policy, duties for which independent contractors may not be
used include: 1) fugitive investigations, 2) out-of-district special assignments,
3) international extraditions, 4) personal security details, 5) witness security details, and
6) administrative support, or supervisory functions.

                                                3
Procurement Process for Independent Contractors

       Contracting for guard services through independent contractors differs
in significant respects from contracting for guard services with guard
companies. Under a guard company contract, the company, as the
contractor, supplies the USMS with the agreed-upon guard services. The
USMS pays the guard company for its services and the company, in turn,
pays its employees (the contract guards) the agreed-upon wages per the
contract. In addition, as the guards’ employer, the guard company is
responsible for personnel functions such as hiring, training, scheduling,
timekeeping, payroll, and disciplinary actions. Under the procurement
process for independent contractors, in contrast, the administrative and
personnel functions rest entirely with USMS district personnel. Specifically,
the USMS districts are responsible for awarding individual contracts for
independent contractors, negotiating contract prices, scheduling,
timekeeping, payroll, training, disciplinary actions, and contract termination,
if deemed necessary.

Prior Reports

       We previously conducted several audits that examined aspects of the
USMS’s use of contract guards. In our audit report entitled “United States
Marshals Service Prisoner Medical Care,” 04-14, February 2004, we disclosed
that management of contract guard operations relative to prisoner medical
care was characterized by inadequate training, breaches in policy, and
lapses in internal controls. We noted problems in nearly all areas of contract
guard activity, ranging from lack of documentation to overpayments. More
importantly, the ill-managed contract guard operations created an
environment in which the USMS cannot effectively control the risks inherent
in transporting federal prisoners to and from off-site health care facilities. In
one instance, a contract guard’s failure to follow procedure, among other
factors, had resulted in the escape from a hospital of a prisoner with active
tuberculosis.

       In our audit report entitled “United States Marshals Service Court
Security Officer Program,” 00-21, August 2000, we disclosed several issues
concerning the overall effectiveness of the CSO Program. Specifically, we
found that: 1) there was no provision in the contracts for in-service
training; 2) unannounced tests of security screening posts were being
conducted, as required by USMS policy, at only 5 of the 16 district offices
that we reviewed. Unannounced tests at the other 11 districts were
conducted either infrequently, or in some cases not at all, and 3) a number


                                        4
of CSOs’ security clearances and medical certifications could not be verified
because documentation was not consistently maintained at the district level.




                                      5
                      FINDINGS AND RECOMMENDATIONS

       1.     MANAGEMENT OF INDEPENDENT CONTRACTOR GUARD
              FORCE PROVES PROBLEMATIC

              Our audit of the USMS’s use of independent contractors for
              guard services revealed fundamental flaws in the procurement
              practices of USMS districts. In our review of 223 individual
              contracts for guard services, we encountered material deviations
              from USMS policy directives and the Federal Acquisitions
              Regulation (FAR) governing personal services contracts,
              including the lack of competitive bidding, arbitrary wage
              determination, unauthorized contract payments, and the
              exceeding of procurement authority.8 We attributed the
              problems encountered, in large part, to districts’ general
              disregard for USMS policy directives concerning the procurement
              process. This disregard for procurement directives is caused in
              many instances by the fact that adherence may not be
              administratively practicable. Nevertheless, the districts’ lack of a
              formal procurement process has created an environment that is
              conducive to the proliferation of inconsistencies, inefficiencies,
              and unauthorized uses of independent contractor guards.

Lack of Competitive Bidding Process

       The FAR, Subpart 6.101 (a) states, “with certain limited exceptions,
that contracting officers shall promote and provide for full and open
competition in soliciting offers and awarding government contracts.”
Pursuant to the FAR requirement for full and open competition, USMS policy
directive: Section 9.31 – Use of Personal Services Contract Guards, Part 8 –
Procurement states “Personal services contracts will be procured in
accordance with the FAR…. district offices should establish a list of bidders
who are cleared to perform services for the government… The purpose of
the list is to assist the district in meeting the FAR requirement that the
government seek competition when it awards contracts. Thus when the
USMS has a requirement for a guard to provide services, it should solicit
offers from three of the individuals on the list and award the contract to the
guard offering the lowest price.”

       8
          The FAR is the primary regulation for use by federal agencies in their acquisition of
supplies and services with appropriated funds. It became effective on April 1, 1984, and is
issued within applicable laws under the joint authorities of the Administrator of General
Services, the Secretary of Defense, and the Administrator for the National Aeronautics and
Space Administration, under the broad policy guidelines of the Administrator, Office of
Federal Procurement Policy, Office of Management and Budget.

                                               6
       We found that the sites we reviewed failed to provide for full and open
competition in the awarding of personal services contracts to independent
contractors. The USMS sites reviewed did not maintain bidders’ lists, as
required by USMS policy. Further, there was no formal solicitation of sealed
bids from potential contractors, nor was there any other systematic
approach to procure contract guards based on the competitive process.
While the JPATS operation advertised for guard positions in local and
national publications, we found that guard contracts are usually obtained
through personal networking, rather than open competition.

       Of the 57 independent contractors that we interviewed or provided
with questionnaires at the 7 sites we reviewed, 42 contractors (74 percent)
indicated that they learned about the guard position through informal
contacts with colleagues or acquaintances in law enforcement. At least four
others were actively recruited by the USMS. Further, in our survey of the 94
U.S. Marshals, none of the 63 respondents indicated the use of a bidders list
or any formal solicitation of independent contractors for guard services
pursuant to a full and open competitive bidding process. Instead, we found
that the process more closely resembles the recruitment of employees than
the procurement of contract services. Further, the procurement practices
we observed, rather than providing a forum for full and open competition,
instead restricted the pool of applicants to those individuals, who, through
some personal contact, sometimes with other independent contractors,
sometimes with USMS employees, learn of contract guard positions. USMS
officials cited a sole source justification in circumventing the full and open
competition requirements of the FAR.9

Arbitrary Wage Determinations

       We found that wage rates for independent contractors are determined,
not through a competitive bidding process, but rather are set by the district,
with approval from USMS headquarters. We observed that the discretion
afforded the districts resulted in broad variances in hourly wage rates from
district to district, ranging from a low of $12 in the Central District of
California, which includes the Los Angeles metropolitan area to a high of $35
for select guards within the District of Columbia Superior Court.

     We could not attribute wage variances to cost-of-living factors because
wages in some metropolitan areas, such as Los Angeles, with an hourly
wage rate of $12, were lower than that of more rural areas such as the
       9
         The FAR, Part 6.302-1(a)(2) states that “When the supplies or services required by
the agency are available from only one responsible source,…from only one or a limited
number of responsible sources, and no other type of supplies or services will satisfy agency
requirements, full and open competition need not be provided for.”

                                             7
Southern District of Texas and the Southern District of Iowa, which had
hourly wage rates of approximately $18. Rather, the variances stem from
the fact that some districts established wage rates for independent contract
security guards commensurate with wages for active duty sworn law
enforcement officers, while others, such as JPATS, established wage rates
commensurate with that of bailiffs and jailers, which is more in line with the
duties required of the contract.

      In at least two districts, we found variances within the district itself.
For example, the Southern District of New York paid its independent contract
guards at an hourly wage of $27, except for one, a former deputy marshal,
who was paid an hourly wage of $32. In the District of Columbia Superior
Court, four independent contractors were paid an hourly wage of $35, which
was double the contract rate of $17.50 paid to the District’s other
independent contractors. Such variances would not exist under contracts
with guard company vendors. Under contracts with guard company
vendors, wages are established by the vendor and are based upon the
Department of Labor’s (DOL’s) prevailing wage rate determinations for the
applicable service industry occupation, in accordance with the McNamara-
O’Hara Service Contract Act of 1965.10

       We determined that the high wages were offered, in part, to attract
active duty sworn police officers to serve as contract guards, as was the
case in the Western District of Washington, which offered an hourly rate of
$25 hour. The problem we found with this strategy was that while the
districts may succeed in recruiting some active duty police officers, in most
instances the districts are forced to rely on generally less-qualified contract
guards — usually retirees — because the active duty police officers are not
always available when needed for work.

       Thus, in some districts the USMS is paying too much for independent
contractors by setting wages for a labor pool of which it cannot take full
advantage. On average, USMS independent contractors were paid at an
hourly rate of $19.62 for guard services in FY 2003, $3.37 greater than the
DOL’s average prevailing hourly wage rate of $16.25 for bailiffs and jailers.
Based on 611,638 total contract guard hours reported in FY 2003, we
estimate that the USMS paid approximately $2 million in excess of the
prevailing wage rate for comparable services. This does not necessarily
mean that such cost savings could be achieved, but it does reflect a basic
flaw in the districts’ wage-setting methodology.

      10
         The McNamara-O’Hara Service Contract Act of 1965 establishes standards for
minimum compensation, safety and health protection of employees performing work for
contractors and subcontractors on service contracts entered into with the federal
government and the District of Columbia.

                                           8
Exceeding Procurement Authority

       The contracts for most of the independent contractors reviewed were
not to exceed $25,000 and procurement authority delegated to contracting
officers at the sites reviewed was generally for the same amount. USMS
policy directive 9.31 D.8.e states, “should the contract per guard exceed the
district’s procurement authority, the action must be ratified by the
Procurement Office. The districts and the JPATS shall properly justify the
need to exceed the contract amount.” This requirement is derived from the
FAR, which states “Contracting officers may bind the Government only to the
extent of the authority delegated to them.”

       In 3 of the 7 sites reviewed — the Southern District of New York, the
District of Columbia Superior Court, and the District of Puerto Rico — USMS
contracting officers allowed payments to independent contractors in excess
of the contract amount without providing USMS Headquarters written
justification. Contracting officers in two of those sites — the Southern
District of New York and the District of Puerto Rico — also exceeded their
procurement authority.

      The effects of allowing payments in excess of contract amounts were
twofold: 1) payments in excess of contract prices were not authorized, and
2) the contracting officers exceeded their procurement authority in allowing
these excess payments. The District of Columbia Superior Court was an
exception in that the contracting officer had procurement authority of
$100,000. Thus, while the contracting officer allowed unauthorized
payments in excess of contracted amounts, she did not exceed her
procurement authority in doing so.

      In three of the six districts reviewed, we identified a total of $221,586
in unauthorized payments, as follows:

      •   In the Southern District of New York, the contracting officer
          exceeded her procurement authority in 8 of the 17 contracts
          reviewed, or 47 percent, allowing a total of $187,490 in
          unauthorized payments.

      •   In the District of Columbia Superior Court, the contracting officer
          allowed payments to exceed the contract amount in 10 of the
          25 contracts reviewed, or 40 percent. Unauthorized payments for
          the 10 contracts totaled $28,539.



                                       9
      •   In the District of Puerto Rico, the contracting officer exceeded his
          procurement authority in 2 of 39 contracts, or 5 percent, allowing a
          total of $5,557 in authorized payments.

      In general, the overpayments resulted from lack of oversight from the
contracting officers and their respective contracting officer’s technical
representatives (COTRs). Our review of payroll totals for all of the 2,786
independent contractors employed in FY 2003 indicated that a total of 97
guards were paid in excess of their contract amounts by a total of $887,756.
As of the third quarter of FY 2004, 26 guards had received unauthorized
payments totaling $135,532.

Unauthorized Services

      In addition to exceeding procurement authority, we also noted
instances involving the districts’ unauthorized use of independent
contractors. USMS policy, as reflected in the Statement of Work for
independent contractors, specifically delineates those services authorized
under the contract (see Appendices III and IV). However, we noted
instances in three of the districts reviewed in which the lack of controls over
the procurement process led to the districts’ use of contractors for
unauthorized purposes, as follows:

      •   In the District of Arizona, the USMS and the Tucson Police Union
          established an arrangement whereby for every five police officers
          assigned guard work at a given time, the district has to have a
          police sergeant assigned to supervise them. Under the agreement,
          the district has to pay the sergeant $4 more an hour than the
          regular contract rate. We noted that the two sergeants we
          interviewed spent 10 to 20 percent of their time performing
          administrative duties, such as scheduling. USMS policy clearly
          prohibits of the use of independent contractors for supervisory
          functions and administrative duties.

      •   In the Western District of Washington, the USMS hired a recently
          retired USMS employee as a contract guard. While the timesheets
          for the retiree turned contractor indicated that she was performing
          prisoner transport, in reality the retiree was being used in her
          former capacity as an administrator to train her replacement, a
          function not permitted under 28 U.S.C. Section 565.

      •   In the Southern District of New York, a recently retired
          administrative employee was hired by the district as a contract
          guard. As in the Western District of Washington, we found that the

                                       10
            contractor’s timesheets indicated that she was performing guard-
            related duties, when in fact she had resumed her prior
            administrative duties. District officials explained that at the time of
            the employee’s retirement, the District needed staff to perform
            administrative duties but was unable to hire a replacement for the
            retiree. Consequently, they hired the retired employee as a
            contract guard, so that she could perform her administrative duties
            until a permanent replacement could be found.

       The examples in the Western District of Washington and the Southern
District of New York, in our judgment, were not only unallowable under 28
U.S.C. Section 565, but also represented a deliberate misuse of contract
authority in order to circumvent civil service rules governing the hiring of
government employees. We also noted that these incidents were neither
new, nor isolated, based on the fact that the issue had been raised in at
least one prior review conducted by the USMS’s former Program Review
Office.11 In that report, dated July 1, 1997, the Central District of California
was admonished for hiring contract guards and then using them in an
administrative capacity in violation of USMS policy and the contract’s
Statement of Work. We attributed these instances to the general lack of
controls over the procurement of independent contractors, which has
created a process that is susceptible to abuse.

Use of Independent Contractors

       At the heart of the issue underlying the problems we found with the
USMS’s use of independent contractors is the question of whether USMS
districts can realistically be expected to adhere to the rules regarding their
procurement. In place of competitive bidding for independent contractors,
we found informal recruiting practices in most districts. In place of sealed
bids, we found arbitrary wage determinations. In place of contract
monitoring, we found overpayments and circumvention of civil service rules.
In short, the procurement practices we observed, while expedient, violated
both USMS policy and the sections of the FAR upon which the policy is
based.

      The obvious answer is to bring the districts’ procurement practices into
compliance with USMS policy, but this may not necessarily be the best
solution. Requiring USMS districts to provide full and open competition in
accordance with USMS policy (e.g., formal solicitations, bidders’ lists, sealed
bids) on 2,000 plus individual contracts annually, in our judgment, would
       11
           In FY 2004, the USMS reorganized its internal review function by establishing an
Office of Inspections. The reorganization included the folding of its former Program Review
Office into the new Office of Inspections.

                                             11
result in an administrative burden that would largely negate the benefits
currently derived from the flexibility and expediency afforded by use of
independent contractors. Indeed, even with the current deficient
procurement practices, officials from districts with large numbers of
independent contractors commented on the administrative workload
required in managing so many individual contracts. The fact that the
districts have almost universally ignored the requirements of USMS policy
governing the procurement of independent contractors constitutes a tacit
rejection of the policy, and indicates that full implementation of the policy is
not practicable.

      Thus, the dilemma facing the USMS: The districts’ current
procurement practices are fundamentally flawed and susceptible to abuse,
and need to be brought into compliance with USMS policy and federal
procurement regulations. However, full implementation of the procedures
required to bring the districts into compliance on the procurement of
independent contractors would create a tremendous administrative burden,
and therefore is not practicable.

Possible Alternatives

       In our judgment, given that neither the continuance of the current
deficient procurement practices nor the full implementation of USMS policy
for procurement of independent contractors are acceptable solutions, the
USMS should consider alternatives to the use of independent contractors for
guard services. The following is a discussion of the possible alternatives:

      Vendor Contracts (Company Guards)

      To the extent possible, the USMS could expand its use of guard
company vendors. Currently, the USMS uses contract vendors primarily to
provide courtroom security via the CSO Program and for guarding inmates
receiving outside medical care. Our review determined that USMS districts
rarely use vendor guards for court-related prisoner handling activities,
preferring instead to use independent contractors.

      District officials replying to our questionnaire on the use of
independent contractors often stated that they preferred independent
contractors to company guards primarily because it provided them the ability
to individually screen candidates and therefore ensure the quality of the
guards hired.

     While we have noted in prior audits that the quality of company guards
does not always meet USMS established criteria, it is the responsibility of the

                                       12
districts, particularly the contracting officers and COTRs, to ensure that
vendors provide qualified guards (See Prior Reports Section in the
Introduction on page 4). Guard companies have a contractual obligation to
provide fully qualified and trained individuals to perform guard duty at the
time and place required. Contractors who do not meet USMS requirements
should be replaced with contractors who can meet those requirements.

      Part-time and Temporary Employees

       In 1978, the Federal Employees Part-time Career Employment Act
(Act) established a continuing program for the promotion and expansion of
part-time employment. The Act made significant changes in federal
personnel management practices, which included: 1) narrowing the
definition of part-time career employment from scheduled work of less than
40 hours per week to scheduled work of between 16 and 32 hours per week,
and 2) changing the method for counting part-time employees against the
agency personnel ceiling by requiring the counting of part-time employees
on the basis of the fractional part of the 40-hour week actually worked.

      According to the Act, Congress found that part-time employment
benefits the government by offering management more flexibility in meeting
work requirements and filling shortages in various occupations. Also, the
Act required the establishment of part-time career employment programs to
be used in connection with establishing part-time career employment goals.

      We noted in our review of USMS payroll reports that over 90 percent
of the independent contractors used in FY 2003 worked fewer than six
months during the year. The amount of time contractors worked ranged
from a low of 2 hours to a high of 2,110 hours. On average, independent
contractors worked about 200 hours over the course of the year. In fact,
the 605,897 hours worked by the 2,786 independent contractors on the
payroll in FY 2003 equated to only 291 full-time positions for the year.

      Despite the fact that independent contractors represent, for the most
part, a workforce of temporary, part-time workers, our review of the USMS’s
contract operations during this and prior audits did not indicate that the
USMS has ever pursued a part-time program or explored the use of part-
time or temporary employees for guard services. While the use of part-time
employees in districts with large fluctuations in courtroom activity would not
be effective, we believe that the implementation of such a program may be
a feasible alternative to the use of independent contractors in districts that
have a constant predictable workload.



                                      13
      Cooperative Agreements/IGAs

       Current USMS policy requires that districts obtain guard services to the
extent possible from existing IGAs with local jails. Toward that end, the
districts might also negotiate agreements with local law enforcement or
corrections agencies to provide guard services and prisoner transportation.
One of the districts surveyed had indicated an interest in pursuing the use of
a cooperative agreement with the local police department in lieu of using
independent contractors. Expanded use of these agreements could alleviate
the districts’ reliance on independent contractors for transporting prisoners
to and from federal courthouses and medical facilities.

Conclusion

      The USMS districts’ procurement of independent contractors is not in
compliance with USMS policy or the FAR. Deviations from USMS policy and
the FAR included the lack of competitive bidding, arbitrary wage
determination, unauthorized contract payments, exceeding of procurement
authority, and unauthorized uses of independent contractors.

       The USMS must either bring its procurement process into compliance
with its own policy or seek alternative methods for procuring the necessary
guard services. However, given the impracticality of fully competing nearly
3,000 individual contracts annually, the USMS should consider alternative
methods for staffing prisoner-handling operations in the districts.

Recommendations

      We recommend the USMS:

1.    Ensure the use of formal procurement procedures in the districts to
      remedy the inconsistencies, inefficiencies, and misuse of authority
      cited in this report.

2.    Consider obtaining guard services currently provided by independent
      contractors through the following alternative methods: 1) expanded
      use of guard company contracts, 2) expanded use of
      intergovernmental agreements with local jails or cooperative
      agreements with local law enforcement agencies, and 3) use of part-
      time or temporary employees.




                                      14
      2.    INTERNAL CONTROL WEAKNESSES IN HIRING AND
            MONITORING OF INDEPENDENT CONTRACTORS INCREASE
            RISK THAT THE USMS WILL HIRE UNQUALIFIED PERSONS
            FOR GUARD SERVICE

            Our review of over 200 contract guard case files revealed
            internal control weaknesses in the hiring and monitoring of these
            independent contractors. We were unable to establish whether
            contractors were qualified for guard service for 23 percent of the
            contracts reviewed due to missing case files or missing
            documents. For those cases where adequate documentation
            existed, we determined that at least 12 individuals (6 percent)
            were hired for guard service with little or no law enforcement
            experience, in violation of USMS policy. In addition, we were
            unable to verify that guards had been fully trained, had met
            fitness standards, and had received a required background
            investigation. In general, the problems noted resulted from the
            lack of a systemized approach to hiring and monitoring contracts
            by USMS district contracting officers and Contracting Officers
            Technical Representatives (COTRs). Failure to address these
            weaknesses may allow poorly qualified, ill-trained individuals to
            obtain guard contracts, which in turn could jeopardize the safety
            of the judiciary and the general public.

       There are inherent risks associated with the transportation and
guarding of federal prisoners outside of a jail or detention center. To
minimize these risks, the USMS has established policies and procedures to
ensure that independent contractors hired for guard service possess the
skills and experience necessary to perform their duties. However, we found
that weak internal controls in district oversight of contract operations have
resulted in poorly maintained case files that make it difficult to verify
whether contract guards: 1) meet USMS experience requirements for guard
service, 2) are medically fit for duty, 3) have received the required training,
4) have qualified with firearms on a timely basis, and 5) have received a
background investigation.

Qualifications For Contract Guards Not Adequately Documented

      According to USMS policy, independent contractors hired for guard
services must have qualifying experience under one of the following five
categories: 1) active duty sworn state or local law enforcement officers;
2) reserve sworn state or local law enforcement officers; 3) former/retired
sworn federal, state, or local law enforcement officers; 4) former/retired
military police; or 5) private security/correctional officers (see Appendix III).

                                       15
Properly determining and documenting qualifying experience is important
because it affects the specific requirements needed by a contract guard to
meet USMS guard standards. Category 1 and 2 guards, for instance, need
only affirm that they meet specific USMS standards, e.g., weapons qualified,
physically fit, sufficiently experienced in law enforcement. On the other
hand, category 3, 4, and 5 guards must provide medical fitness certification
signed by a doctor and be weapons qualified by the USMS.12

      We reviewed 223 case files to determine whether the contract guards
hired had the experience necessary to qualify for guard service. We found
that the districts and the JPATS had not documented in the case files the
contract guards’ category of qualifications because this information is not
required by USMS policy directives.

       Because the qualifying experience was not formally documented, we
had to review documents in the case files to determine the selected guards’
qualifying experience. We were unable to do so for a significant number of
cases because the files lacked sufficient documentation to make a
determination. The USM-234 Personal Qualifications Statement, for
instance, the main document used to determine a contractor’s qualifications
was missing from 51 case files, or 23 percent of the 223 files we examined.
Lack of documentation was generally concentrated in two of the sites
reviewed. In one district, 21 case files, or 84 percent of the 25 case files
reviewed, lacked the necessary documents for determining the contractors’
qualifications. The USM-234 was not on file for any of the independent
contractors reviewed in another district. Case files were missing for 10 of
the 30 contractors, and the remaining 20 case files reviewed did not contain
the USM-234.

       For those files reviewed that did contain sufficient documentation, we
determined that at least 12 of the guards hired lacked the experience
necessary to qualify as contract guards. Four of the 12 individuals hired had
no law enforcement experience at all, but rather background as a sales
clerk, a receptionist, an administrative clerk with the USMS, and an airport
screener. While 2 of the 4 guards were no longer active at the time of our
audit fieldwork, the receptionist and the airport screener were still active at
the time of our review. District officials commented that while these
contract guards may not have had law enforcement experience at the time
they were hired, they now have qualifying experience through their guard
service with the USMS. However, we believe that hiring unqualified
individuals for prisoner handling operations represents a breakdown in

      12
           Contractor applicants sign an Affirmation of Work Qualifications for contract
guards.

                                               16
internal controls that places an undue risk on all parties involved in the
judicial process.

Medical Certifications Not Consistently Documented

      In addition to meeting experience requirements, contract guards are
also expected to meet physical fitness standards. To ensure that guards
maintain certain fitness-for-duty standards, they are required to annually
submit a form, signed by the guard’s physician, stating that the contractor
can physically perform the duties required. These requirements include that
the guard must: 1) be able to lift or carry 45 pounds, 2) be able to reach,
grab, and climb, and 3) have the ability for rapid mental and physical
movement. If a contractor is also an active-duty law enforcement officer,
the USMS requires only that the guard’s agency sign an affirmation that the
contractor meets the agency’s fitness standards.

       We reviewed 132 active case files to verify that guards were medically
certified as fit for duty. Our tests of six districts and the JPATS revealed a
range of results. On one end of the spectrum one of the six districts and the
JPATS had fully documented case files. At the other end of the spectrum
were three districts that each had poorly documented case files.
Somewhere in between were two districts, in which most but not all case
files reviewed were adequately documented.




                                       17
                            Independent Contractors’
                          Fitness-For-Duty Certification
                                  Active
                               Guards’ Files        Medically     Percentage
               Site             Reviewed            Certified13   Verified (%)
     District 1                     20                         16            80
     District 2                       20                          6                30
     District 3                       20                        13                 65
     District 4                       12                          7                58
     District 5                       20                        20                100
     District 6                       20                          6                30
     JPATS Oklahoma City              20                        20                100
              Source: Contract guard files



      The physical fitness of retirees in the guard service was an issue with
some of the USMS employees and judges that we interviewed. While most
of the 14 judges interviewed stated that they were satisfied with the
performance of the independent contractors, one of the judges who
responded by questionnaire did express concern stating, “The contract
guards are usually older (some retired) or have worked a previous shift(s)
for their regular employer. Due to a combination of these factors, contract
guards are more likely to fall asleep during court proceedings.”

      It should be noted that while deputy marshals are medically certified
by an agency physician, independent contractors are allowed to have their
own private physicians sign their certification forms. As such, skepticism is
required as to the validity of some certifications. For example, we
determined that at least three independent contractors who were former law
enforcement officers had retired from their respective police agencies on
medical disability. In addition, the contracts for at least four of the former
guard files reviewed in one district were terminated because they did not
meet fitness-for-duty standards. All were category 1 guards, i.e., active
duty sworn law enforcement officers who had been affirmed as fit-for-duty
by their police agency. A guard with a physical disability or deteriorating
health may not be able to respond adequately in an emergency, which could
jeopardize the safety and welfare of the judiciary and the general public.



       13
          Active duty sworn law enforcement officers only need affirmation of fitness from
their agency.

                                             18
Inability to Verify Contractor Training

       USMS policy requires that independent contractors receive specific
training within the first 30 days of service and annual refresher training
thereafter. The policy allows past or current agency training to be used in
lieu of USMS training for categories 1 and 2 guards, but such training must
be annotated on the Affirmation of Qualifications statement in the guard's
contract file.14 However, there was some ambiguity in this matter, as the
Statement of Work for personal services contract guards clearly identifies
USMS training for these same contractors, including the USMS policy
directives on the “Use of Force, Firearms and Code of Professional
Responsibility.” In addition, all categories of independent contractors must
review and become familiar with USMS policies and procedures regarding
cellblock operations, JPATS operations, in-district prisoner movement, and
the prisoner tracking system. Districts also have to ensure that independent
contractors reviewed these USMS policies and procedures.

      We reviewed a sample of 223 current and former independent
contractors to determine whether they were provided the required training
on the use of force and whether they viewed videos on bloodborne/airborne
pathogens, prisoner restraints, and prisoner transportation. Our results are
presented in the following table:




       14
            The Affirmation of Qualifications is a signed document listing the contractor’s
qualifications, including experience, training, background, and fitness for duty. The
contractor training recorded on this particular form does not specify whether or not videos
on pathogens and restraints were viewed by the independent contractors as a part of their
training in these areas. In our audit, we could only determine whether training videos were
viewed from information obtained through independent contractor interviews and
questionnaires.

                                            19
                        Initial and Refresher Contractor Training

              Use
              Of        Pathogens               Policies &           Restraints      Transport
Site          Force     Video         Ethics    Procedures           Video           Video
n=sample      Y=Yes, N=No, U=Unknown, N/A=Not Applicable
District 1    Y=0       Y=9           Y=0       Y=0                  Y=9             Y=1
(n=40)        N=40      N=31          N=40      N=40                 N=31            N=39
District 2    Y=0       Y=0           Y=0       Y=0                  Y=0             Y=0
(n=24)        N=24      N=24          N=24      N=24                 N=24            N=24
District 3    Y=0       Y=11          Y=0       Y=0                  Y=10            Y=0
(n=30)        N=0       N=15          N=26      N=26                 N=16            N=6
              U=30      U=4           U=4       U=4                  U=4             U=4
                                                                                     N/A=20
District 4    Y=8         Y=0            Y=3*       Y=0              Y=0             Y=0
(n=17)        N=9         N=17           N=14       N=17             N=17            N=17
District 5    Y=24        Y=10           Y=25       Y=12             Y=11            Y=11
(n=32)        N=8         N=22           N=7        N=20             N=21            N=21
District 6    Y=6         Y=4            Y=17       Y=0              Y=1             Y=0
(n=40)        N=30        N=33           N=19       N=40             N=35            N=36
              U=4         U=3            U=4                         U=4             U=4
JPATS –
Oklahoma      Y=39        Y=20           Y=21       Y=20             Y=20            Y=32**
City          N=1         N=20           N=19       N=20             N=20            N=8**
(n=40)
              Y=77        Y=54           Y=66       Y=32             Y=51            Y=44
TOTAL         N=112       N=162          N=149      N=187            N=164           N=151
(N=223)       U=34        U=7            U=8        U=4              U=8             U=8
                                                                                     N/A=20
*Records for all three contractors were outdated. **Contractors received JPATS-related training.
Source: Site Personnel and Procurement Files; Contractor Interviews and Questionnaires



       As indicated in the table above, in the majority of case files reviewed
we were unable to verify that contractors had been provided with the
required training. Documentation of training in one district was virtually
nonexistent. Three districts were only marginally better. Although not
reflected in the totals, documentation of training in the case files for current
active contractors in another district and the JPATS operation hub was for
the most part complete.

Firearms Qualifications Not Always Timely

      The Statement of Work for independent contractors states that
contractors shall be unarmed unless otherwise directed (see Appendix IV).
Unarmed contractors are used to guard prisoners and provide security in the
courtroom and the cellblock. For contractors that the USMS designates as
armed guards, USMS firearms policy requires that the guards qualify with
firearms at least once every six months (see Appendix V).

                                                 20
      Of the 132 active independent contractors selected for review, we
determined that 77 active contractors, or 58 percent, were required to be
armed and 41 active contractors, or 31 percent, were unarmed. We could
not determine whether the remaining 14 active contractors, or 11 percent,
were required to carry and qualify with firearms because either their files or
their Weapons Qualification Forms (USM-333) were not available.

      We tested the 77 active contractors identified as armed to determine
whether they had completed firearms qualifications on handguns and, if so,
whether they had qualified in a timely manner. If the qualification was not
timely, the time elapsed from the prior qualification was noted. Our results
are presented in the following table:




                                      21
                           Firearms Qualifications

                                            Were Those        If Not Timely,
                       Qualified            Who Qualified Time Elapsed Since
  Site                 Firearms             Timely?**         Last Qualification
  n=sample             Q=Qualified, NQ=Not Qualified, U=Unknown, N/A=Not Applicable
                       Q=15                 Yes=2
  District 1 (n=20)
                       NQ=0                 No=1              15 months
                       Unarmed=4            N/A=12
                       U=1
                       Q=2                  Yes=0
  District 2 (n=20)
                       NQ=0                 No=2              8 months & 15 months
                       Unarmed=18
                       Q=3***               Yes=0
  District 3 (n=20)
                       NQ=0                 No=0
                       Unarmed=17           N/A=3

                       Q=10               Yes=3
  District 4 (n=12)
                       NQ=1               No=5              12 months
                       Unarmed=1          N/A=2
                       Q=20               Yes=0
  District 5 (n=20)
                       NQ=0               No=5              11 months
                                          N/A=13
                                          U=2
                       Q=6                Yes=0
  District 6 (n=20)
                       NQ=1               No=3              17-18 months
                       Unarmed=1          N/A=3
                       U=12
                       Q=16               Yes=6
  JPATS – Oklahoma
                       NQ=3               No=7              7 months
  City* (n=20)
                       U=1                N/A=3
      Source: Personnel and Procurement Files, Records; Contractor Interviews and
      Questionnaires
      * Contractors qualify only on shotguns.
      ** N/A=Contractor qualified on firearms at another law enforcement agency.
          Since the contractor was not qualified by the USMS, whether or not the training
          was provided timely was not readily determinable.
      ***Guards indicated in their questionnaires that they were required to be armed.



      With the exception of five armed contractors who did not qualify at all
with their firearms, we concluded that armed contractors at the sites
reviewed did receive firearms qualifications. However, there was no
indication of any corrective action taken to ensure that the five armed
contractors qualified with their firearms. In addition, the required training
for 23 of the 77 armed contractors, or 30 percent, was not provided in a
timely manner, i.e., every six months, as required by USMS firearms policy.
Independent contractors in four of the six districts we reviewed had gone a
year or longer without re-qualifying with their firearms.


                                           22
Limited Background Investigations

       Our review of active case files at the sites selected indicated that
district offices are not in compliance with USMS policy concerning
background investigations for independent contractors.15 We could not
verify that the required background investigation had been conducted in 86
case files, or 65 percent of the 132 active case files reviewed, as shown in
the table below:


                         Limited Background Investigations
                              On Active Contractors
                                                     Required
                                                      LBI or          Percent
                                      Contracts      waiver not         Not
                      Site            Reviewed        on file         Verified
            District 1                   20                   17             85
            District 2                      20                  13            65
            District 3                      20                  20          100
            District 4                      12                   7            58
            District 5                      20                  18            90
            District 6                      20                   6            30
            JPATS Oklahoma City             20                   5            25
            Total                        132                    86         65%
              Source: USMS contract files



       To the extent that the USMS fails to perform the necessary
background checks on applicants, it fails to effectively mitigate the risk that
USMS districts will hire individuals unqualified or unsuitable for guard duty.




       15
          Upon initial hire the following documents are to be sent from the district to the
USMS’s Human Resources Division (HRD) Background and Suitability Team in order to
complete the contractors required background investigations: 1) Three signed copies of an
FD-258 or Standard form 87A, Fingerprint Cards, 2) Standard Form 85P, Questionnaire for
Public Trust Positions, 3) Form DOJ-555, Disclosure and Authorization Pertaining to
Consumer Reports Pursuant to the Fair Credit Reporting Act, 4) Form USM-164 Applicant
Appraisal Questionnaire, 5) DD214 (Category 3-5), and 6) Fit-for-duty (Category 3-5).


                                             23
Contract Monitoring

       In general, the deficiencies discussed in this finding are in large part
attributable to poor contract monitoring on the part of contracting officers
and their respective COTRs.16 This is not to say that contracting officers and
their COTRs were not monitoring the contractors themselves. Indeed, our
interviews with contracting officers and their COTRs indicated that they were
personally aware of contractors’ individual performances in the completion of
their assigned duties. However, the sites shared in common the lack of a
reliable system to record and maintain contract documentation related to
hiring, training, and evaluating independent contractors. A comprehensive
system of rosters and databases would provide the USMS with an effective
means to collect and track information related to contract activity.

       Toward that end, we noted that at least three of the six districts had
implemented signed rosters to document training completed and videos
viewed by independent contractors. In addition, the JPATS operation had
recently implemented a database for monitoring training provided to its
independent contractors. The JPATS database includes contractors’
orientation, firearms qualifications, ethics training, fit-for-duty requirements,
JPATS-specific training, annual refresher training, and affirmation of work
qualifications forms. In our judgment, the steps taken in the
aforementioned districts and JPATS to document and track guard training
represent a best practice that USMS management should use in developing a
system to implement in all districts.

       We also noted that only one district had implemented the use of
written evaluations of its independent contractors. In addition, another
district was developing an evaluation for its independent contractors,
according to the District’s administrative officer. We highlight the use of a
formal evaluation process as another best practice that the USMS should
implement in all districts.



       16
           Contracting officers may appoint individuals selected by the district or site office to
act as authorized representatives in the monitoring and administration of a contract. Such
officials are designated in the contract as the COTR. The COTR must attend and
successfully complete a COTR course and obtain training in procurement ethics. Once the
COTR signs a certification for procurement officials required by the Procurement Integrity
Act, the contracting officer designates in writing that the COTR can act as an authorized
representative to monitor contract performance and deliveries in accordance with the
contract requirements and certify satisfactory delivery of supplies or services before
contractor invoices are paid. The contract guard policy states that a marshal or another
appropriate individual may be a COTR after receiving the appropriate training.


                                               24
Conclusion

        Based on our review of contractor files for both active and former
contract guards, we concluded that internal control weaknesses exist in the
hiring and monitoring of independent contract guards. We determined that
at least 12 individuals without qualifying experience had obtained guard
contracts. Further, we could not verify for a significant number of guards
that once hired, they receive the required training and background checks.
We attributed these internal control deficiencies to a lack of a systemized
approach on the part of contracting officers and COTRs to documenting and
maintaining contract guard activity. Failure to address these weaknesses
increases the risk that breakdowns in the process will result in unqualified,
ill-trained individuals obtaining guard contracts.




                                      25
Recommendations

     We recommend the USMS:

3.   Revise the independent contractor fitness-for-duty requirements to
     reflect the physical requirements needed to adequately perform
     contractor assignments.

4.   Require that contracting officers maintain complete contract files
     documenting each independent contractor’s qualifying experience, the
     qualification category under which he or she is hired, fitness-for-duty,
     and a completed limited background investigation.

5.   Institute a formal evaluation process of independent contractors to
     include, at the minimum, having supervisors perform written
     evaluations of independent contractors on an annual basis.

6.   Develop and implement in the districts a system to track and
     document annual independent contractor training.

7.   Ensure that independent contractors required to carry firearms qualify
     every six months.




                                     26
                         OTHER REPORTABLE MATTERS

       We noted internal control weaknesses with regard to the handling of
guard-issued identification (ID) cards at 4 of the 7 sites reviewed. Poor
accountability for property, such as ID cards, increases the risk that property
lost or stolen may be used to gain unauthorized access to federal facilities.


•   District 1: The district issues ID cards to contract guards, which
    provides them access to USMS space. The district did not follow USMS
    policy or procedures to deactivate the cards.

•   District 3: Contractors were issued ID cards and swipe cards, and at
    least eight of the contractors were issued keys. However, we were able
    to verify only one instance in which the issuance of property was recorded
    on a hand receipt.

•   District 4: USM-288A Hand Receipt forms were not issued to the
    contract guards along with their government ID cards. District officials
    explained that hand receipts were not issued because they did not believe
    they were required. However, district officials stated that the ID cards,
    which are issued on an annual basis, are collected and destroyed at the
    end of the fiscal year.17

•   JPATS (Oklahoma City): ID and swipe cards are issued along with
    uniforms. Upon return, the ID card is destroyed and the swipe card is
    recycled and issued to a new guard. JPATS maintains a list of the guards
    issued uniforms. However, only ten percent of the guards reviewed were
    given hand receipts for their ID and swipe card.




       17
           USMS Directives under Property Management 7.1.D.4.e states that accountable
property must be controlled by the use of a hand receipt and that all accountable property
must be retrieved from contract guards when their contracts expire or is not renewed. In
addition, ID cards will be hand receipted annually on an USM-288A Hand Receipt. ID cards
given to contract guards must be retrieved when the contract expires or the guards’
services are no longer needed.

                                            27
   STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      As required by the standards, we tested selected transactions and
records to obtain reasonable assurance about the USMS’s compliance with
laws and regulations that, if not complied with, we believe could have a
material effect on operations. Compliance with laws and regulations
applicable to use of independent contract guards is the responsibility of
USMS management.

      An audit includes examining, on a test basis, evidence about laws and
regulation. The specific requirements for which we conducted tests are
contained in the Unites States Code, Title 28, Section 565, Federal
Acquisitions Regulation (FAR) Part 13.106, and Part 6, subpart 6.303-1. We
found that the USMS was not in full compliance with requirements of the FAR
regarding full and open competition for independent guard contracts.




                                     28
                                                                               APPENDIX I

                  OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

        The objectives of the audit were to: 1) assess the USMS’s internal
controls over the procurement of independent contractors for guard service,
2) determine whether the USMS is adequately monitoring the performance
of its independent contractors, 3) determine whether the independent
contractors are meeting the USMS’s experience and fitness-for-duty
requirements, 4) evaluate the initial training provided to contract personnel,
and 5) determine whether independent contractors are performing only
authorized duties.

Scope and Methodology

      We conducted the audit in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States, and
included the tests and procedures necessary to accomplish our objectives.

       The scope of the audit encompassed USMS management of
independent contract guards for FY 2003 and FY 2004. We conducted
fieldwork at USMS Headquarters in Arlington, VA; and district offices located
in six districts. We also conducted fieldwork at the JPATS operational hub in
Oklahoma City, OK.

       To accomplish our objectives we:

       •    Researched and reviewed applicable laws, policies, regulations,
            manuals, and memoranda.

       •    Interviewed officials at USMS Headquarters.

       •    Interviewed officials and contract guards at USMS district offices
            and the JPATS operation in Oklahoma City, Oklahoma.

       •    Interviewed district judges in the districts visited.

       •    Interviewed and obtained opinions from six federal judges
            concerning courtroom performance of independent contractors.18
       18
           Six of the judges sitting on the Administrative Office of the United States Courts’
“Judicial Committee for Security and Facilities” agreed to be interviewed about the use of
independent contractors for courtroom security.

                                              29
•   Reviewed district guard budgets and compared to actual
    expenditures.

•   Selected 223 guards on a judgmental basis to include both current
    and former guards active during FY 2003 and FY 2004. Former
    guards were selected to include guards that were terminated for
    cause.

•   For each guard selected, we reviewed USM-234 Personal
    Qualifications Statement, Affirmation of Work Qualifications, USM-
    333 Firearms Qualifications, and Medical Certifications for each
    guard selected to determine whether the guard met qualification
    and fitness-for-duty requirements.

•   Reviewed the procurement file to determine the hourly guard rate
    and contract amount, and compared these rates to payroll records.

•   Reviewed 752 time and attendance records.

•   Reviewed files of former guards to determine causes for termination
    and verified return of government property.

•   Designed and disseminated questionnaires on the districts’ use of
    independent contract guards to each of the 94 U.S. Marshals. We
    received 63 responses. Information obtained from those
    questionnaires is reflected throughout the report.

•   Obtained and analyzed payroll data on all active independent
    contract guards during FY 2003 and FY 2004.




                                30
                                                               APPENDIX II

                 GLOSSARY OF TERMS AND ACRONYMS

Affirmation of Work Qualifications: A signed document containing the
contractor’s qualifications including experience, training, background, and
fitness for duty.

Cellblock: Secure area in the USMS district office intended to house
prisoners waiting for their court proceedings.

Contracting Officer: Contracts may be entered into and signed on behalf of
the USMS only by a contracting officer.

Contracting Officer Technical Representative (COTR): Official authorized to
monitor and administer a contract for the purpose of inspection and
acceptance.

Cooperative Agreements Program (CAP): Pursuant to 18 U.S.C., the CAP
assists state and local governments in funding the renovation or construction
of detention facilities. The state and local governments in return guarantee
the USMS bed space for a predetermined period of time.

Court Security Officer (CSO): Contract guard hired under the Court Security
Officer Program to provide courtroom and facility security at federal
courthouses.

Federal Acquisition Regulation (FAR): Uniform codification of policies for
acquisition of supplies and services by executive agencies.

Fed Biz Ops: Publication listing current federal government procurement
opportunities over $25,000.

Federal Insurance Contributions Act (FICA): Payroll withholdings for Social
Security tax.

Hand receipts USM-288A: Document used to assign personal accountability
to USMS property.

Human Resources Division (HRD): HRD is responsible for performing
background and suitability checks on independent contractors.

Intergovernmental Agreement (IGA): Formal written agreement between
the USMS and a local or state government for the housing, care and
safekeeping of federal prisoners.

                                      31
Independent contractors: Individual contract with a single contract guard.

Justice Prisoner and Alien Transportation System (JPATS): Operated by the
USMS, the JPATS transports prisoners between judicial districts, correctional
institutions, and foreign countries. According to the USMS, the JPATS
averages more than 270,000 prisoner and alien movements annually
through a network of aircraft, sedans, vans, and buses. The air fleet
includes Boeing-727s and numerous smaller craft. Whether by air or by
surface transportation the JPATS routinely serves about 40 cities and
provides as-needed service to many others. Air fleet operations are
centered in Oklahoma City, Oklahoma, with satellite hubs in Phoenix,
Arizona, and Alexandria, Louisiana.

NCIC/NLETS: National Crime Information Center/National Law Enforcement
Telecommunication System (Automated background checks)

National Finance Center (NFC): Federal payroll system that issues Bi-weekly
payments to government employees and is also used to pay independent
contractors.

Personal Qualifications Statement (USM-234): Application for employment
completed by independent contractors.

Personal services contract: A contract that enables the government to
directly supervise a contractor’s personnel. Contracts with security guard
vendors represent a typical example of a personal services contract.

Procurement Authority: The dollar contract limitation stated on the
contracting officer’s “Certificate of Appointment.”

Shadow Force: USMS colloquialism referring to the largely unacknowledged
workforce of independent contractors.

Statement of Work (SOW): The portion of a contract that describes in
precise terms the work (tasks, materials and services) to be provided by the
contractor.

USM-7 Bi-weekly: Time sheet used to record all personal service guard
hours.




                                      32
                                                              APPENDIX III


           USMS DIRECTIVES ON PRISONER MANAGEMENT
             PERSONAL SERVICES CONTRACT GUARDS

      The following are excerpts from USMS policy directives concerning the
use of personal services contract guards for the purposes of prisoner
management.

Scope of services

     Contract guard duties: When utilized, contract guards assist the
     USMS; duties include the following:

     1.    Guarding and processing federal prisoners in the cellblock,
           courtroom, and during transport.

     2.    Guarding and transporting federal prisoners to and from medical
           appointments.

     3.    Guarding federal, seized, or forfeited property (including entry
           control, roving patrol, fixed posts, and emergency response).

     Restrictions: Contract guards may not be used for:

     1.    Fugitive investigations;

     2.    Out-of-district special assignments;

     3.    International extraditions (JPATS contract guards may be an
           exception during prisoner movement);

     4.    Personal security details;

     5.    Witness security details (JPATS contract guards may be an
           exception during prisoner movement);

     6.    Administrative support functions; or

     7.    Any supervisory function.




                                        33
    Work schedule: Contracted hours will be scheduled on an “on call/as
    needed” basis. District and JPATS management will determine if a
    contract guard is also working a shift or hours with a local agency
    (e.g., working a double shift).

    1.   A USM-7, Bi-weekly Time Report, is to be used to record all
         personal service guard hours.

    2.   Contract guards cannot be scheduled for more than 16 USMS
         duty hours per day;

    3.   Overtime compensation will be paid after 40 hours have been
         worked per week;

    4.   USMS operational personnel have the right to first refuse an
         opportunity to work overtime hours prior to a contract guard
         being offered overtime provided Law Enforcement Availability
         Pay hours have been worked and the event has been scheduled
         a week in advance, if applicable.

    5.   Discontinued Service: Personal services contracts for guards may
         be terminated at any time for any reason. However, contractors
         must be provided 15 days notice before the contract can be
         terminated (pursuant to 48 CFR, Ch 1, FAR Section 52.249-12).
         All USMS property and identification must be accounted for and
         collected by the termination date.

Requirements

    General Requirements: All applicants must fulfill the following
    requirements:

    1.   Be a United States citizen,

    2.   Be at least 21 years of age,

    3.   Speak, read, and write the English language,

    4.   Possess a valid driver’s license,

    5.   Demonstrate a proficiency in firearms that meets USMS
         standards if the assignment requires the use of an armed
         contract guard,

                                    34
6.    Be physically able to perform the full range of contract guard
      duties as described in the Statement of Work (SOW) without
      limitation,

7.    Have no medical problems (e.g., amputations, deformities,
      disabilities, etc.) that would restrict strenuous exertion or
      prevent satisfactory performance,

8.    Have no history of medical problems (e.g., high blood pressure,
      heart or respiratory disease, etc.) that would restrict strenuous
      exertion,

9.    Have no other health-related problems such as alcohol
      dependency, controlled substance abuse, illegal drug use,
      mental illness, or psychological disorders,

10.   Categories are used to separate contract guard applicants into
      groups for the purpose of contracting procedures and
      processing. These categories do not represent any hierarchy of
      qualifications.

      a.    Category 1: Actively employed sworn state or local law
            enforcement officers.

      b.    Category 2: Reserve sworn state or local law enforcement
            officers with a minimum of 1-year full-time law
            enforcement employment/experience.

      c.    Category 3: Former/retired sworn federal, state, or local
            law enforcement officers with a minimum of 1-year full-
            time law enforcement experience who are separated no
            longer than 5 years from law enforcement employment.

      d.    Category 4: Former/retired military police with full-time
            experience in the performance of guard duties over
            prisoners on a regular basis who are separated no longer
            than 5 years from law enforcement.

      e.    Category 5: Private security/correctional officers.
            Employment as a private security guard does not qualify
            applicants unless they have at least 3 years of full-time
            guard duties supervising prisoners on a regular basis.
            Applicants must also have received an accredited law


                                35
                 enforcement course of training. Academic or technical
                 training may not be substituted for experience.

Firearms

The districts and JPATS identify guards who will provide services while
armed. Before providing services while armed, contract guards must meet
the training and qualification requirements stated in the current USMS
firearms policy, unless otherwise specified in this directive. Special
deputation is not required for contract guards to provide armed services.

a.   Contract guards may be issued USMS firearms and ammunition.

b.   Contract guards may carry approved handguns and USMS shotguns.
     Rifles are not authorized for contract guard use.

c.   Active and reserve sworn state and local law enforcement officers
     (Categories 1 and 2) may carry the handgun and ammunition issued
     by the agency with whom they are employed after the USMS district
     firearms instructor has inspected the firearm for compliance with
     USMS policy.

d.   A contract guard may carry a personal handgun if it is inspected by the
     USMS district firearms instructor for compliance with USMS policy.

e.   Firearms Qualification

     1.    Categories 1 and 2 contract guards are exempt from USMS
           firearms qualifications if they certify in the Affirmation of Work
           Qualifications for contract guards that they are currently
           qualified and authorized to carry their duty firearm. Otherwise,
           the USMS is required to qualify Categories 1 and 2 contract
           guards in accordance with USMS firearms policy.

     2.    Categories 1 and 2 contract guards must have been qualified by
           their agency within the past 12 months and must re-qualify at
           least annually, thereafter. Otherwise, the USMS is required to
           qualify the contract guards in accordance with USMS firearms
           policy.

     3.    Categories 3, 4, and 5 contract guards are required to qualify in
           accordance with USMS firearms policy.



                                     36
Contract Guard Check List                Source of Contract Service Guards


(X Indicates Required Item)   Category    Category   Category   Category     Category
                                One         Two       Three       Four         Five

Training:
Bloodborne/Airborne
Pathogen                      Optional    Optional      X          X            X

USMS Use of Force                 X             X       X          X            X
Firearms qualification
(handgun)                     Optional    Optional      X          X            X
Firearms qualification
(shotgun)                     Optional    Optional      X          X            X
Code of Professional
Responsibility                    X             X       X          X            X
Review of USMS policies and
procedures                        X             X       X          X            X

View videos: Prisoner         Optional    Optional      X          X            X
Restraints and USMS/BOP
Prisoner Transportation


Accountable Property

All USMS accountable property such as USMS-issued weapons, USMS-issued
identification, and related property or equipment will be secured in USMS
custody at the end of each tour of duty.

a.    USMS management may waive this requirement when articulated
      circumstances make it impractical to secure issued items.

b.    Lost or stolen government property, including weapons, identification,
      uniforms with the USMS insignia, or other issued equipment, must be
      immediately reported to the USM or designee. Lost or stolen
      accountable property must be reported in accordance with current
      USMS policy.




                                           37
c.    Accountable property must be retrieved from contract guards when
      their services are discontinued.

      1.    The Human Resources Division (HRD) will have oversight of the
            contract guard identification.

            a.   HRD will issue the identification software/program and
                 supplies to administer identification cards.

            b.   The guard identification cards are governed by the USMS
                 Badge and Credential Policy.

            c.   Lost or stolen identification will be reported as required by
                 the USMS Badge and Credential Policy.

Procurement

Personal services contract guards will be procured in accordance with the
Federal Acquisition Regulation (FAR) subpart 37.1.

a.   Oversight: Management and Budget Division (MBD), Office of Finance,
     will have oversight of the policies covering guard appropriations,
     procurement, and payment of personal services contractors.

b.   Initiating Actions: All proposed contract actions must be initiated by
     an USM-157, Requisition of Supplies and Services, Statement of Work,
     and an Optional Form 347, Order for Supplies and Services.

c.   Bidders List. District offices should establish a list of bidders who are
     cleared to perform services for the government. This is done by
     compiling a list of individuals who are financially sound, have
     professional integrity, and are capable of providing the services. The
     purpose of the list is to assist the district in meeting the Federal
     Acquisition Regulation (FAR) requirement that the government seek
     competition when it awards contracts. Thus, when the USMS has a
     requirement for a guard to provide services, it should solicit offers from
     three of the individuals on the list and award the contract to the guard
     offering the lowest price. Future contracting will be easier if the hourly
     rate charged by each guard is included on the bidder’s list.

d.   Use of Multiple Contracts. District may fill their requirements
     through the award of separate contracts. For example, if a USM or
     CDUSM is satisfied with the performance of a particular contractor, they

                                       38
     may award separate contracts to that individual to cover different
     requirements. Thus, one responsible contractor may receive a contract
     for guarding cellblock prisoners, another contract for guarding property,
     and/or a contract for transporting prisoners.

e.   Exceeding Procurement Authority. Should the contract per guard
     exceed the district’s procurement authority, the action must be ratified
     by the Procurement Office. The districts and the JPATS shall properly
     justify the need to exceed the contract amount. To prevent districts or
     the JPATS from exceeding their procurement authority, that contract
     guard is to be exchanged for the next individual on the rotated list.

f.   FICA Withholding. The USMS is required by the Internal Revenue
     Code to withhold and report Federal Income Tax and Social Security
     (FICA).

g.   JPATS Contract Guards. Contract guards engaged to assist JPATS are
     contracted in Oklahoma City, Oklahoma; Alexandria, Louisiana; and El
     Paso, Texas.

h.   National Finance Center Payment. Contract guards will be paid
     through the National Finance Center (NFC) payroll system when
     possible. The NFC will record hours worked, provide pay statements,
     and do all necessary tax reporting. There are no limitations on hours
     worked by contract guards before they can be placed in the NFC
     system. Also, it is not required or recommended to remove contract
     guards from the NFC when their services are discontinued.

     1.    District offices will be responsible for the overall implementation
           and maintenance of payroll records for contract guards using the
           NFC payroll system.

     2.    A separate USM-7 will be used to record the contract guard’s
           hours within a two-week pay period.

     3.    The following forms are required to enroll a contract guard in the
           NFC and will be submitted to MBD:

           a.    Direct Deposit Sign-up Form

           b.    Department of Justice Locator (DOJ-233)

           c.    Withholding Allowance Certificate (W-4)


                                       39
i.   Non-NFC Payment. Contract guards may be paid by district check if
     they are not enrolled in the NFC system.

     1.    Federal, state, local, and FICA deductions are required to be
           deducted from the earnings of the contract guard.

     2.    Withholding Allowance Certificate (W-4) is required to calculate
           withholdings.

     3.    Internal Revenue Service, Circular E, contains tables that are used
           to determine the amount of federal tax to be withheld.

     4.    The district and JPATS are required to prepare and submit a Form
           W-2, Wage and Tax Statement, to the IRS for each contract guard
           at the end of the calendar year.

     5.    Withholdings must be paid to the IRS electronically as mandated
           by current federal law.

     6.    Management and Budget Division, Office of Finance, will assist
           with FICA calculations and submission of withholdings.

Contracting, General

a.    Statement of Work. A contract guard provides services under a
      Statement of Work or contract as an independent contractor. Contract
      guards shall perform the service stated in the SOW with the full
      knowledge that the authority vested in them can only be exercised in
      furtherance of the objective of the contract. (The SOW is approved for
      use by the Office of General Counsel. Changes to the SOW should be
      reviewed by the Prisoner Services Division prior to use).

b.    Reporting Relationships. Reporting relationships are as follows:

      1.    Contracting Officer: A contracting officer is a person with the
            authority to enter into, administer and/or terminate contracts,
            and make related determinations and findings. The contracting
            officer is responsible for developing a Statement of Work,
            monitoring contract performance, and evaluating the criteria for
            awarding the personal services contract. Contractor
            performance issues need to be documented and forwarded to
            the respective contracting officer. The contracting officer may
            appoint a COTR to officer technical guidance and direction to a
            personal services guard and to officer technical guidance to a

                                      40
           contracting officer. The USM or other appropriate individual may
           be a COTR after receiving the appropriate training. Only the
           respective contracting officer may change the terms and
           conditions of a contract.

     2.    Oversight: Contract guards will receive general direction or
           oversight from the USM or their designee when handling,
           guarding, or transporting prisoners, or guarding property.

     3.    Changes in Qualifications, Employment, or General
           Requirements: It is the responsibility of the contract guard to
           immediately notify the USM or designee of any significant
           changes in these areas.

c.   Affirmation of Work Qualifications for Contract Guards. The
     Affirmation letter is used to reduce contracting paperwork and affirm
     training requirements for contract guard applicants. Categories 1 and
     2 applicants’ current law enforcement agency may certify to the USM
     that the applicant/officer is not the subject of any internal or external
     investigations, under suspension, or on medical or administrative
     leave. Recertification is required on an annual basis or upon change of
     law enforcement agency or department. It is the responsibility of the
     contract guard to immediately notify the contracting officer of any
     significant employment change.

d.   Special Deputation. Special deputation is not required or
     recommended for a contract guard to provide services while armed or
     unarmed. The authority to perform services while armed, carry a
     concealed firearm, cross jurisdictional boundaries, and enforce federal
     laws are extended to contract guards in the federal function
     established by the Statement of Work or contract they enter into with
     the USMS. The USMS protects the contract guard for government
     liability purposes to the degree of a deputy marshal.

Contracting Procedures

a.   Procedures and Documents for the USM. The USM, or designee,
     requesting the guard service will complete the following and forward
     them and documents completed by the applicant to the contracting
     officer, usually the district administrative officer.

     1.    Form USM-157, Requisition of Supplies and Services, will be
           completed and signed by the district staff member who is


                                     41
          requesting guard services. The USM-157 is not to exceed the
          district’s procurement authority.

     2.   NCIC/NLET criminal checks will be run to check for outstanding
          warrants, criminal records, or restraining orders. Any positive
          hits may result in the discontinuance of the contracting process.

     3.   Statement of Work request.

b.   Procedures and Documents for the contracting officer. The
     contracting officer will complete an Optional Form 347, Order for
     Supplies and Services, that will note the contract guard hourly,
     overtime, and not-to-exceed purchase order value upon value upon
     receipt upon receipt of the USM-157. A guard file will be developed for
     the OF-347, USM-157 Affirmation of Work Qualifications for Contract
     Guards, Fit for Duty Medical Certification, and Statement of Work.

c.   Procedures and Documents for All Applicants. The following will
     be completed and submitted to the USM or designee within
     10 business days or at the time service is to be performed:

     1.   Affirmation of Work Qualifications for contract guards will be
          provided by the districts and JPATS during the interview process.
          The applicant will have their immediate supervisor complete,
          sign, and date the qualification’s statement.

     2.   A Statement of Work for contract guard services will be
          reviewed, signed, and dated by the contract guard applicant.

     3.   Form I-9, Employment Eligibility Verification.

     4.   Form USM-234, Personal Qualifications Statement.

Responsibilities

a.   U.S. Marshals/Chief Deputy U.S. Marshals/JPATS:

     5.   Identify suitable contract guard applicants and complete the
          contracting procedures and process.

     6.   Complete limited background investigations on contract guards
          and guard applicants, when applicable.



                                    42
     7.   Provide training for contract guards on proper USMS policies and
          procedures.

     8.   Print, issue, and maintain accountability for contract guard
          identification and equipment.

b.   Prisoner Service Division: Assist the districts and JPATS with the
     overall administration of the contract guard policy and procedures.

c.   Human Resources Division:

     1.   Process and review limited background investigations.

     2.   Process background waivers for contract guards.

     3.   Provide assistance and oversight of the contract guard
          identification program.

d.   Management and Budget Division:

     1.   Assist the districts and JPATS with the appropriations,
          procurement, and payment of personal services contracts.

     2.   Provide assistance and oversight of the National Finance Center
          payroll system for the USMS.

     3.   Assist the districts and JPATS with the development of
          Statements of Work and complying with requirements of the FAR
          and Federal Procurement Laws.

e.   Office of General Counsel: Assist the districts and JPATS in
     interpreting laws, regulations, legal instruments, and defend the USMS
     in any actions brought before a federal court or administrative
     tribunal.




                                    43
                                                               APPENDIX IV

                      STATEMENT OF WORK
               PERSONAL SERVICES CONTRACT GUARDS

Objective:

The objective of this contract is to provide for the security in handling and
transportation of all federal prisoners and aliens, certain non-federal
detainees, and military prisoners in various work contexts, including hospital
details.

Personal services contract guards, referred to as guards, must be
experienced in the field of law enforcement. Guards must meet the contract
guard minimum requirements as described in USMS policy. Certain guards
may be armed at the discretion of the chief deputy marshal or his/her
designee. Guards are authorized to carry and use the handgun and
ammunition that their issuing agency has trained and qualified them with
and has authorized them to carry. Non-active duty law enforcement will
qualify with USMS-approved duty handgun and ammunition semiannually on
a USMS course of fire. This handgun will be the only handgun non-active
duty law enforcement will be authorized to carry as a guard for the USMS.
At the discretion of the USMS, guards may be issued shotguns for use if they
have completed the semiannual shotgun familiarization course of fire. This
authorization is limited to time periods while under contractual obligations to
the USMS. All guards are required to read, understand, and comply with the
current USMS Policy Directives on Use of Force, Firearms, and Code of
Professional Responsibility. Copies of applicable USMS policies are available
for review from the chief deputy U.S. marshal or is/her designee, Monday
though Friday, 8 a.m. – 4:30 p.m.

Work Locations:

Guards may be utilized for duties in these areas:

      1.   Hospitals
      2.   Cell blocks
      3.   JPATS
      4.   Hangar Security
      5.   Courts
      6.   Transport of detainees
      7.   Seized Assets



                                      44
Reporting Requirements:

A Contracting Officer is available to offer contract interpretation. Issues
regarding the Statement of Work, the purchase order, or contractor-related
issues will be directed to the contracting officer.

Deputy U.S. Marshals can be designated COTRs (Contracting Office Technical
Representatives) by the contracting officer after an approved course of
study. They will offer technical guidance to contract guards. Guards will
receive general direction or oversight when engaged in specific work
contexts involving the handling, guarding, or transporting of prisoners or
detainees from designated deputy U.S. Marshals.

Objectives for Guards:

  1.    The guard agrees to provide guard services in accordance with this
        Statement of Work upon request of the chief deputy marshal or
        his/her designee. Request for these services may be made at any
        time of the day or night, and the guard must be capable of
        providing the services. As much advance notice as possible shall be
        given.

  2.    Guards shall be unarmed unless otherwise directed. Armed guards
        must meet the training and qualification requirements stated in
        current USMS policies prior to providing services while armed. The
        authority to carry a concealed weapon is extended to the guard to
        the extent necessary to meet the objectives of this written
        Statement of Work. No authority is extended to carry a concealed
        weapon beyond duty assignments.

  3.    Guards shall be responsible for the secure custody of any federal,
        state, or local detainee from the time the detainee is accepted into
        the custody of the USMS or its designee, and until he/she is
        properly removed from custody by an authorized official.

  4.    The guard must maintain constant guard and observation of the
        detainee. In the event of an escape or attempted escape, the
        guard must notify the chief deputy marshal or his/her designee.

  5.    The guard may be required to travel. Such travel may require
        overnight stays. The guard shall be reimbursed for actual hours
        worked (from the time required to show until the guard is released
        from work that duty day). The duty location is subject to change
        depending on mission requirements. Meals and hotel expenses will

                                     45
        be reimbursed in accordance with the Joint Federal Travel
        Regulations. Incidental expenses will be reimbursed based on
        actual expenses with proper documentation (i.e., rental car,
        parking, and tolls). Guards will submit a written estimate (Travel
        Authorization/Advance) of costs prior to travel and file travel
        expense vouchers within five days of their return.

  6.    The guard shall be notified by the chief deputy U.S. Marshal or
        his/her designee of any special instructions concerning any
        individual detainee being guarded or transported.

  7.    The guard shall not leave the assignment without notifying the chief
        deputy U.S. Marshal or his/her designee, including for meals or rest
        breaks.

  8.    Any information or records provided to the guard regarding
        individuals being guarded shall be treated as confidential, and shall
        not be divulged to anyone except as otherwise provided by
        Department of Justice and USMS policies and procedures.

  9.    The guard will be responsible for adhering to the USMS policies and
        procedures pertaining to the handling and transporting of prisoners,
        the use of firearms, the use of deadly force, and other applicable
        policy and procedures that pertain to the assignment or to federal
        law enforcement officers.

  10.   The guard shall report to work physically fit, mentally alert, and
        appropriately groomed.

  11.   The guard shall have no history of alcohol and/or drug abuse.

Specific Requirements:

The guard will be required to perform guard services of the type set forth
below at the request of the chief deputy U.S. marshal or his/her designee:

  1.    Assist with application of restraints and maintaining daily inventory
        of restraints,

  2.    Assist in detainee meal distribution,

  3.    Assist in the guarding of detainees while boarding, being
        transported, and disembarking from vehicles and aircraft,


                                     46
  4.    Assist in the guarding and processing of detainees in the cellblock,
        courtroom, and during judicial proceedings,

  5.    Assist in the guarding and transportation of detainees to and from
        medical appointments or while hospitalized for medical treatment,

  6.    Assist with the pre-check of emergency and evacuation equipment,

  7.    Assist with the monitoring of detainee needs,

  8.    Assist with the handling of detainee property,

  9.    Assist with detainee searches,

  10.   Provide security within the USMS district office cellblock, including
        monitoring security equipment and patrolling the areas adjacent to
        the cellblock,

  11.   Search and secure cellblock, and

  12.   Guard seized assets as specified by the USMS.

Standards:

All guards are required to comply with the following standards:

  1.    Be courteous and demonstrate good manners.

  2.    Maintain a respectful and helpful attitude in all endeavors.

  3.    Maintain a neat, clean, and professional appearance, and comply
        with the security dress standards while on duty.

  4.    Report to work physically fit and mentally alert. Immediately make
        appropriate notification to the chief deputy marshal or his/her
        designee if unable to perform per the Statement of Work.

  5.    Prior to the assignment, report any circumstances which may
        adversely affect the mission to the chief deputy U.S. marshal or
        his/her designee.

  6.    If guards should be detained or become aware that they are under
        investigation by any federal, state, or local agency, for any legal or


                                      47
      ethical violation, they must report this to the chief deputy marshal
      and the contracting officer, no later than the next working day.

7.    Guards shall ensure that weapons are properly secured in a safe
      place to prevent theft, tampering, or misuse when not being
      carried.

8.    Guards will not engage in any discussions concerning Department
      of Justice or USMS internal matters, policies, grievances, or
      personalities with family members. In additions, guards will not
      discuss the above or financial, personal, or family matters, with
      prisoners/detainees, witnesses, protectees, any known associate of
      the above, or the public. Guards will not entertain, socialize, enter
      into business arrangements with, give legal advice or grant special
      favors to, or accept gifts or payment from detainees, friends or
      family members of the above.

9.    Guards will not accept or solicit gifts, favors, or bribes in connection
      with the performance of the Statement of Work.

10.   Guards will not allow detainees or the friends and family members
      of detainees into their home or living quarters (temporary or
      permanent).

11.   Guards will not visit the duty site during non-duty hours unless
      authorized to do so by the chief deputy marshal or his/her
      designee.

12.   Guards will not disclose any official information, except to the chief
      deputy U.S. marshal, his/her designee, or other officials having a
      need to know, or make any news or press releases without the
      express permission of the contracting officer. This does not prohibit
      protected whistle-blowing activities.

13.   Guards will refrain from any discussions concerning duty
      assignments, manpower, weapons, security precautions, or
      procedures in the presence of detainees.

14.   Guards will comply with applicable federal, state, and local laws
      while in performance of the Statement of Work.

15.   Guards will not knowingly file false or misleading statements or
      conceal material facts in connection with performance of the


                                    48
      Statement of Work, travel vouchers, time sheets, or any record,
      investigation, or other proper proceeding.

16.   Guards will not discriminate against or sexually harass any person.

17.   Guards will ensure that all financial obligations are met.

18.   Guards will abide by all ethical standards of the Department of
      Justice regarding conflict of interest, outside activities, gifts, and
      use of federal property.

19.   Guards will not bid on or purchase in any manner, directly or
      through an agent, any property being offered for sale by the USMS
      or by others serving on behalf of the USMS.

20.   Guards will refrain from any activity which would adversely affect
      the reputation of the Department of Justice and the United States
      Marshals Service.

21.   Guards will avoid personal contact with persons known to be
      convicted felons or person known to be connected with criminal
      activities.

22.   Guards will avoid any criminal, infamous, dishonest, immoral, or
      notoriously disgraceful conduct and habitual, excessive use of
      intoxicants or non-prescribed drugs. Contract guards will abstain
      from the consumption of alcoholic beverages while on duty. Guards
      will not report for work under any conditions, which impairs the
      ability to perform as expected.

23.   Guards will always demonstrate the highest standards of personal
      and moral conduct.

24.   Guards will not operate a government vehicle, or any other vehicle
      while on government business, in an improper manner or under the
      influence of intoxicants or drugs.

25.   Guards will not misuse official authority, credentials,
      communications equipment, or weapons.

26.   Guards will not make false statements about fellow guards or
      officials with knowledge of the falseness of the statement or with
      reckless disregard of the truth.


                                     49
27.   Guards will report violations of prescribed rules, regulations, and
      any violations of statute or law to the chief deputy marshal or
      his/her designee.

28.   Guards will comply with all USMS security procedures or
      regulations.

29.   Guards will not close or desert any post/area prior to release by the
      chief deputy U.S. marshal or his/her designee. Guards will remain
      at the assigned post/area until properly relieved or until the time
      that post/area is secured.

30.   The Guard will not fail, unnecessarily delay, or refuse to carry out a
      proper assignment that is directed by a supervisor.

31.   Guards will maintain proper care and custody of issued government
      property and the property of others.

32.   Guards will refrain from surreptitiously recording conversations
      between any USMS employees or contractors.

33.   Guards will conduct only official business on government property
      and telephones.

34.   Guards will refrain from neglecting duties. This includes sleeping on
      duty, unreasonable delays or failures to carry out assigned tasks,
      conducting personal affairs during duty hours, and refusing to
      render assistance or cooperate in upholding the integrity of the
      work site security.

35.   Guards will refrain from use of abusive or offensive language,
      quarreling, intimidation by words, actions, fighting, and
      participation in disruptive activities, which interfere with normal and
      efficient government operations.




                                    50
   36.   Within three days of completion of the contract guard’s contract
         with the USMS, the contractor will be required to return all
         USMS-issued equipment/property to the chief deputy marshal or
         his/her designee.

Payment for Services:

The guard shall submit to the USMS or its designee, a written request for
reimbursement on a bi-weekly basis or upon the completion of each
assignment. The appropriate USMS form (USM-7 or the USMS Time and
Attendance form) must list the trip number, the number of hours of guard
services worked, and the days on which the services were performed. The
guard is responsible for submitting in a timely manner the appropriate
USMS-7 or Time and Attendance form to a supervisory deputy marshal for
approval and payment.

Special Conditions:

All guards will serve at the discretion of the chief deputy marshal or his/her
designee.

The guard shall perform the services stated herein with the full knowledge
that the authority vested in him or her can be exercised only in furtherance
of the objectives of this written Statement of Work and extend so far as may
be necessary to faithfully fulfill the terms of this Statement of Work.

The guard is providing services under this contact as an independent
contractor, and no master/servant, employer/employee, or agency
relationship is created by this contract. The guard shall be reimbursed at
the hourly negotiated rate set forth in the OF-347, subject only to
withholding of federal and state taxes as required by 26 U.S.C 3402(a).




                                      51
The Guard agrees that he/she is not an employee of the USMS or its
designee and is not entitled to pension benefits, health benefits, or
other federal employee benefits or services.

I have read and understand this Statement of Work, for the
performance of guard services for the United States Marshals
Service, and am in agreement with the Statement of Work
as written. I understand that I am not an employee of the United
States Government and I shall not represent that I am employed by
the United States Government, Department of Justice, or the United
States Marshals Service. I understand that all contracted working
hours will be on an on–call/as-needed basis.


                         Print ENTIRE Name


Signature                                                       Date




                                  52
                                                                         APPENDIX V

                          USMS FIREARMS POLICY

     The following are excerpts from USMS policy on the use of firearms by
personal services contract guards.

Requirement For Training and Qualification: All USMS employees who
are authorized to carry firearms will be trained in their use and will qualify
and be familiarized with them according to the chart below. This
requirement applies to all authorized firearms used by an employee.

All others who carry firearms under the authorization of the USMS (guards,
special deputy U.S. marshals, etc.) will also be qualified by a USMS firearms
instructor or, if they are employed by another law enforcement agency, by
their own agency’s instructors and policies. Court Security Officers will be
qualified according to the terms of the current CSO contract.

Required Qualifications/Familiarizations: It is the responsibility of each
employee to successfully qualify with the firearms they are authorized to
carry.

The following chart describes the minimum required firearms qualifications
and familiarizations for operational personnel:



  FIREARM TYPE       COURSE OF FIRE         SCHEDULE              PARTICIPANTS

  Handgun:                                                        All employees
                     Qualification: 210     At least once every   authorized to carry
  Primary-duty       out of 300 (70%)       six months            primary-duty
  handgun                                                         handguns
                                            At least once every
  Primary-duty       Tactical               six months at the     All employees
  handgun/other      familiarization        time of the           authorized to carry
  weapon (as         course (exact          primary-duty          primary-duty
  determined by      course selected by     handgun               handguns
  course of fire)    firearms instructor)   qualification

                                                                  All employees
  Remington 870      Familiarization        At least once every   authorized to carry
  shotgun                                   six months            firearms



Districts are authorized and encouraged to conduct additional familiarization
at their discretion.

                                            53
Employees Required to Carry Handguns While On Duty

a.    All USMS employees who are authorized to carry firearms will carry
      approved primary-duty handguns when on duty unless relieved by
      proper authority.

b.    Such employees may opt to carry an approved secondary or backup
      handgun while on duty.

c.    When carrying firearms, either on or off duty, employees will have
      their issued badges and credentials.

d.    Carrying unauthorized firearms is strictly prohibited.

Off-Duty Carriage of Weapons

Court Security Officers (CSOs) and guards are not authorized to carry
firearms or non-lethal devices off duty.

Use of Force Policy/Firearms Policy

Before being authorized to carry a firearm, each employee will be instructed
in, and issued a copy of, the use of force and firearms policy directives. The
issuance and instructions will be documented on Form USM-333, Weapons
Qualification and Familiarization/Authorization to Use Personally Owned
Weapons.

Authorized Weapons: Personally Owned Handguns

Each personally owned weapon must be approved in writing by a USMS
supervisor (GS-13 or above) on Form USM-333, Weapons Qualifications and
Familiarization/Authorization to Use Personally Owned Weapons.

Mandatory Qualifications/Training

Firearms Instruction: Certified USMS firearms instructors will conduct all
qualifications, familiarization, proficiency demonstrations and other firearms
training provided by the USMS. Training provided by outside
vendors/agencies is not subject to this requirement.

Firearms Inspection: Prior to qualification, the firearms instructor will
inspect each firearm to ensure it meets USMS safety and mechanical
requirements.


                                      54
Weapons Qualification Record: The firearms instructor will record all
firearms qualifications, familiarization, tactical familiarization courses,
inspections and verifications on Form USM-333, Weapons Qualification and
Familiarization/Authorization to Use Personally Owned Weapons, and submit
the form to a USMS supervisor (GS-13 or above) for authorization. A copy
will be provided to the employee.




                                     55
                                                                         APPENDIX VI

                        U.S. MARSHAL QUESTIONNAIRE
                         Personal Service Contract Guards

NAME:

DISTRICT:

1.   Does the district employ the use of independent contractors as personal       YES   NO
     services contract guards?

     If yes, please describe what duties these contractors perform.


     Does the district also utilize a vendor guard company contract?

     If yes, please explain how the company guards are used. (Note: if your
     district does not use independent contractors as personal services contract
     guards the remaining questions can be answered as not applicable).


2.   How many personal service contract guards does the district currently employ? Please
     provide a breakdown of the number of guards by categories per USMS policy directive
     9.31 – Use of Personal Services Contract Guards.

     Category 1:

     Category 2:

     Category 3:

     Category 4:

     Category 5:

     TOTAL

3.   Please describe the methodology used by the district to schedule and assign work hours
     for independent contractors in order to maximize coverage and minimize overtime?



4.   a.    What is the hourly wage rate for independent contractors in your        $
          district?


     b.    What methodology was used to determine the wage rate, e.g., DOL
          prevailing wage rate?




                                            56
5.    Does the district utilize both armed and unarmed independent personal           YES    NO
      services contract guards?

       If so, what percentage of your contract guards are unarmed and are they
      paid at the same hourly rate as the armed contract guards?


6.    How much money was allocated for independent personal services contract         $
      guards (Sub Object 1101) in your district budget for FY 03? $

      How much was actually spent?                                                    $

7.    Is the district satisfied with the budgeting and funding for contract guards?   YES    NO
      Yes/No


      How can this process be improved?

8.    •    When (months/years) has the district run out of money for independent personal
           services guards in the past 4 years (since FY 2000)?

           MONTH:

           YEAR:

      What was the impact on the district, e.g., reallocation of resources from competing
      priorities?


9.    Describe the procurement process for independent contract guards, i.e., advertisement,
      word of mouth, on-site recruiting, sealed bid, etc.


10.   a. Please describe the training provided to independent contract guards by the district.


      b.    What are the differences, if any, in training between armed guards and unarmed
           guards?


      c.    How often is training conducted?



11.   a. How are personal service contract guards evaluated on their performance?



      b. Who evaluates their performance?




                                               57
12.   If the district is not satisfied with a contract guard’s performance what action is taken?


13.   In your opinion, should contract guard candidates be required to meet the        YES     NO
      same physical fitness requirements as deputy marshals?

      Please explain your answer.


14.   What is your current staffing requirement for operational deputy marshals based on the
      Workforce Equalization Model (WEM)?



15.   What is your actual staffing for operational deputy marshals?                    #


      How many operational vacancies currently exist in your district (not             #
      including reservists called to active duty)?

16.   Does the district use personal service contract guards to augment its
      deputy marshal force or to fill in for staffing shortages?




17.   In your district, which do you believe to be the best method for procuring contract
      guards: independent contract guards, guard company contracts, or cooperative
      agreements?




18.   Overall, are you satisfied with the use of independent contract guards in        YES     NO
      your district?

      What recommendation(s) would you make to improve the process?




                                              58
                     APPENDIX VII

AUDITEE’S RESPONSE




        59
60
61
                                                               APPENDIX VIII


       OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
       SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

      The USMS’s response to the audit (Appendix VII) describes the actions
taken or plans for implementing our recommendations. This appendix
summarizes our response and the actions necessary to close the report.

Recommendations:

1.   Resolved. In its response, the USMS stated that it plans to issue a
     memorandum to all offices concerning proper procurement procedures
     and other policies related to the use of independent contractors as
     guards. The USMS indicated that corrective actions required in
     recommendations 4 through 7 will be incorporated into its policy
     memorandum. In order to close this recommendation, please provide
     by June 30, 2005, copies of procedural guidance to the field and a list
     verifying compliance with the aforementioned policy memorandum.
     Include in the list the district, name and title of certifying official, and
     the date of certification.

2.   Resolved. In its response, the USMS stated that it will conduct a
     review of individual district guard usage in conjunction with its Fiscal
     Year 2007 budget request to determine the best alternative(s) for
     providing the necessary guard services. In order to close this
     recommendation, please provide the results of the review and
     implementation plans, pending approval of the FY 2007 budget
     request. In addition, during the exit conference the feasibility of
     expanding the scope of the USMS’s CSO contracts was discussed.
     Please provide an update on your negotiations with the Administrative
     Office of the United States Courts regarding this matter.

3.   Resolved. In its response, the USMS stated that it will conduct a
     review of its policies on the use of independent contractors as guards,
     with regard to revising the fitness-for-duty requirements. In order to
     close this recommendation, please provide the OIG with the results of
     the review and documentation showing that revised fitness standards
     have been implemented.

4.   Resolved. See actions required for recommendation 1.



                                      62
5.   Resolved. See actions required for recommendation 1. In addition,
     please provide a copy of the form developed to document evaluations.

6.   Resolved. See actions required for recommendation 1. In addition,
     please provide the OIG with the description of the system developed
     for tracking independent contractor training by June 30, 2005, and the
     timeframe for implementation.

7.   Resolved. See actions required in recommendation 1.




                                    63
